   October 1, 2004




Information Technology
Management
Report on Defense Civilian Pay
System Controls Placed in Operation
and Test of Operating Effectiveness
for the Period March 1, 2004
through September 10, 2004
(D-2005-001)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
                              INSPECTOR      GENERAL
                              DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704




                                                                         October I, 2004

MEMORANDUM
      .
                   FOR DIRECfOR,      DEFENSE FINANCE AND ACCOUNTING
                           SERV1CE
                         DIRECTOR, DEFENSE INFORMATION SYSTEMS
                          AGENCY

SUBJECT: Report on the Defense Civilian Pay System (Report No. D-2005-001)

        Weare providing this report for your infonnation and use. No written response to
this report is required. Therefore, we are publishing this report in final form.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Addie M. Beima at (703) 604-9139 (DSN 664-9139) or Ms. DOlUlaA. Roberts at
(703) 604-9136 (DSN 664-9136). Ifmanagement requests, we will provide a formal
briefing on the results.

                               By direction of the Deputy fuspector General for Auditing


                                7lU~
                                 Paul J~an:tto, CPA
                               Assistant Inspector General
                               Defense Financial Auditing
                                         Service
Table of Contents

Section I
      Independent Service Auditors’ Report                                             1

Section II
      Description of DCPS Operations and Controls Provided by DFAS and DISA           7

Section III
      Control Objectives, Control Activities, and Tests of Operating Effectiveness    17

Section IV
      Supplemental Information Provided by DFAS and DISA                             103


Acronyms and Abbreviations                                                           107

Report Distribution                                                                  109
Section I: Independent Service Auditors’ Report




                       1
2
                                                                           October 1, 2004


MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE INFORMATION SYSTEMS
                 AGENCY

SUBJECT: Report on the Defense Civilian Pay System Controls Placed in Operation and
         Tests of Operating Effectiveness

We have examined the accompanying description of the general computer and
application controls related to the Defense Civilian Pay System (DCPS) (Section II).
DCPS is sponsored and used by the Defense Finance and Accounting Service (DFAS).
The system is jointly maintained and technically supported by the Defense Information
Systems Agency (DISA) and technical support elements of DFAS. As such, the DCPS
general computer and application controls are managed by both DISA and DFAS. Our
examination included procedures to obtain reasonable assurance about whether (1) the
accompanying description presents fairly, in all material respects, the aspects of the
controls at DFAS and DISA that may be relevant to a DCPS user organization’s internal
control as it relates to an audit of financial statements; (2) the controls included in the
description were suitably designed to achieve the control objectives specified in the
description, if those controls were complied with satisfactorily and user organizations
applied those aspects of internal control contemplated in the design of the controls at
DFAS and DISA; and (3) such controls had been placed in operation as of September 10,
2004.

The control objectives were specified by the Office of Inspector General of the
Department of Defense (IG DoD). Our examination was performed in accordance with
standards established by the American Institute of Certified Public Accountants and the
standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, and included those procedures we
considered necessary in the circumstances to obtain a reasonable basis for rendering our
opinion.

The accompanying description includes only those application control objectives and
related controls resident at the Charleston, SC, Pensacola, FL, and Denver, CO payroll
offices and does not include application control objectives and related controls at the
National Security Agency (NSA) payroll office. In addition, DCPS interfaces with over
50 DoD and external systems that either receive data from DCPS or transmit data to
DCPS. Examples of these interfaces include the Defense Civilian Personnel Data
System, Automated Time and Attendance and Production System, Automated Disbursing
System, and Defense Joint Accounting System which perform personnel, timekeeping,
disbursement, and payroll accounting functions. The accompanying description includes
only the control objectives and related general and application controls resident at the
Charleston, SC, Pensacola, FL, and Denver, CO payroll offices and related to the DCPS
systems itself and does not include control objectives and related general and application
controls resident at the NSA payroll office and related to the systems that interface with
DCPS. Our examination did not extend to the controls resident at the NSA payroll office
and related to the systems that interface with DCPS.

Our examination was conducted for the purpose of forming an opinion on the description
of the DCPS general and application controls at DFAS and DISA (Section II).
Information about business continuity plans and procedures at DFAS and DISA, as

                                             3
provided by those organizations and included in Section IV, is presented to provide
additional information to user organizations and is not a part of the description of controls
at DFAS and DISA. The information in Section IV has not been subjected to the
procedures applied in the examination of the aforementioned description of the controls
at DFAS and DISA related to their business continuity plans and procedures and,
accordingly, we express no opinion on the description of the business continuity plans
and procedures provided by DFAS and DISA.

In our opinion, the accompanying description of the general computer and application
controls at DFAS and DISA related to DCPS (Section II) presents fairly, in all material
respects, the relevant aspects of the controls at DFAS and DISA that had been placed in
operation as of September 10, 2004. Also, in our opinion, the controls, as described, are
suitably designed to provide reasonable assurance that the specified control objectives
would be achieved if the described controls were complied with satisfactorily and users
applied those aspects of internal control contemplated in the design of the controls at
DFAS and DISA.

In addition to the procedures that we considered necessary to render our opinion as
expressed in the previous paragraph, we applied tests to specified controls, listed in
Section III, to obtain evidence about their effectiveness in meeting the related control
objectives described in Section III, during the period from March 1, 2004 to September
10, 2004. The specific control objectives; controls; and the nature, timing, extent, and
results of the tests are listed in Section III. This information has been provided to DCPS’
user organizations and to their auditors to be taken into consideration, along with
information about the user organizations’ internal control environments, when making
assessments of control risk for such user organizations.

As discussed in the accompanying description, a number of controls in place to ensure
compliance with DoD information assurance policies, including DoDI 8500.2 and
DITSCAP, appear to be suitably designed, but our tests of operating effectiveness
indicated inconsistencies in adherence to these policies. Specifically, we noted the
following:

   •   SDCA-1: Risk assessment activities performed at DECC-ME are not in full
       compliance with DoD 8510.1-M. Although a DITSCAP review had been
       completed, it had not been updated to reflect recent changes in the DITSCAP
       guidance. In addition, SRR reviews are regularly performed that should detect
       items not compliant with DISA standards.

   •   SDCA-1: Annual information assurance reviews as required by DoD 8510.1-M
       were not performed at TSOPE. However, DCPS is audited each year by various
       entities.

   •   SDCA-3: Extraneous communications services not covered by DISA STIGs are
       operating on all three logical partitions. While these extraneous services do not
       appear to pose significant risk to DCPS data, DoD information assurance policy
       states that for enclaves and AIS application, all DoD security configuration or
       implementation guides should be applied.

   •   SDCI-4: Several undocumented interfaces that are not covered by DISA STIGs
       were observed communicating with DCPS. While these interfaces do not appear
       to pose significant risk to DCPS data, DoD information assurance policy states
       that for enclaves and AIS application, all DoD security configuration or
       implementation guides should be applied.

                                             4
As a result, the controls objectives SDCA-1, SDCA-3, and SDCI-4 may not have been
achieved during the period from March I, 2004 and September 1O,2004.
In our opinion, except for the deficiencies in operating effectiveness noted in the
preceding paragraph, the controls that were tested, as described in Section III, were
operating with sufficient effectiveness to provide reasonable, but not absolute, assurance
that the control objectives specified in Section III were achieved during the period from
March I, 2004 to September 10, 2004. However, the scope of our engagement did not
include tests to determine whether control objectives not listed in Section III were
achieved; accordingly, we express no opinion on the achievement of control objectives
not included in Section TII.
The relative effectiveness and significance of specific controls at DFAS and DISA and
their effect on assessments of control risk at user organizations are dependent on their
interaction with the internal control environment and other factors present at individual
user organizations. We have perfonned no procedures to evaluate the effectiveness of
internal controls placed in operation at individual user organizations.
The description of the controls at DFAS and DISA is as of September 10,2004, and
information about tests of their operating effectiveness covers the period from March 1,
2004 to September 1O,2004. Any projection of such information to the future is subject
to the risk that, because of change, the description may no longer portray the system in
existence. The potential effectiveness of specific controls at DFAS and DISA is subject
to inherent limitations and, accordingly, errors or fraud may occur and not be detected.
Furthermore, the projeetion of any conclusions, based on our findings, to future periods is
subject to the risk that (1) changes made to the system or controls, (2) changes in
processing requirements, or (3) changes required because of the passage of time may aJter
the validity of such conclusions.
This report is intended solely for use by management ofDCPS, its user organizations,
and the independent auditors of such user organization.
                               By direction of the Deputy Inspector General for Auditing:




                                 ~~=
                               Assistant Inspector General
                               Defense Financial Auditing
                                         Service




                                             5
6
Section II: Description of DCPS Operations and Controls
              Provided by DFAS and DISA




                           7
8
II. Description of DCPS Operations and Controls Provided by
      DFAS and DISA
   A. Overview of DCPS
   Purpose of DCPS

   In 1991, the Department of Defense (DoD) selected the Defense Civilian Pay
   System (DCPS) to serve as its standard payroll system for use by all DoD activities
   paying civilian employees, except Local Nationals and those funded by Non-
   appropriated Funds and Civilian Mariners. The DCPS program mission is to
   process payroll for the DoD civilian employees in accordance with existing
   regulatory, statutory, and financial information requirements relating to civilian pay
   entitlement and applicable policies and procedures. Beginning in 2003 and as part
   of the President’s Management Agenda e-Payroll initiative, DFAS began
   processing payroll for Department of Energy (DOE) employees and was selected as
   one of four federal payroll providers to serve the entire executive branch of the
   Federal government. DFAS also processes payroll for the Executive Office of the
   President.

   The DoD civilian pay program, including the payroll processing performed for DoD
   customers like DOE, must satisfy the complex and extensive functional, technical
   and interface requirements associated with the DoD civilian pay function. The
   functional areas include employee data maintenance, time and attendance, leave,
   pay processing, deductions, retirement processing, debt collection, special actions,
   disbursing and collection, reports processing and reconciliation, and record
   maintenance and retention. DCPS provides standard interface support to the
   various accounting, financial and personnel systems.

   DCPS Support Functions

   The Defense Finance and Accounting Service - Headquarters (DFAS-HQ) provides
   management control and coordination within DoD and has overall responsibility for
   interpretation and application of DCPS. The system is maintained and executed on
   the Defense Information Systems Agency (DISA) mainframe platforms at the
   Defense Enterprise Computing Center, Mechanicsburg (DECC-ME). The
   Technology Services Organization in Pensacola, Florida (TSOPE), which is part of
   DFAS, provides DCPS application support.

   DCPS Systems Architecture

   DCPS has a two-tiered architecture comprised of the following:
        •   Mainframe hardware and software components - used as a repository for
            the collection and accumulation of data, and to provide centralized,
            biweekly processing of civilian pay and its attendant functions (e.g.,
            electronic funds transfer, generation of leave and earnings statements,
            etc.).




                                          9
     •   Remote user/print spooler hardware and software - used to collect and/or
         pre-process data at customer sites, provide connectivity to DCPS
         mainframe components, and support printing of mainframe generated
         outputs (e.g., reports, timesheets) at customer locations. These
         components are largely customer-owned and operated, and include
         personal computers, local area networks (LANs), a diverse assortment of
         printers, and the software that operates and connects them. A limited
         number of mid-tier (minicomputer) systems have been fielded by the
         Defense Finance and Accounting Service (DFAS) at selected DFAS sites
         to handle specialized printing requirements (e.g., paychecks). Other
         offloaded print services, such as bulk printing for DCPS payroll offices
         and printing of Leave and Earnings Statements (LES), are performed on
         PC/workstation hardware maintained by the Defense Automated Printing
         Service (DAPS) at DAPS sites located in various U.S. and overseas
         geographical regions.

The two tiers of the DCPS architecture are connected via DoD-maintained networks
comprised of Internet Protocol (IP)-based (e.g., Non-Classified Internet Protocol
Router Network (NIPRNET)) and Systems Network Architecture (SNA)-based
(leased line) services. These networks connect DCPS to a wide variety of external,
non-DCPS sites (mainframes, mid-tiers, and PCs) that supply or exchange data with
DCPS on a regular basis, mainly through electronic file transfers. Examples of
external interface sites include the Defense Civilian Personnel Data System, Federal
Reserve, Thrift Savings Plan, Department of Treasury, and non-DoD users such as
the Department of Energy and Executive Office of the President.

The main technical components of DCPS include the following attributes:

     •   DCPS is housed in a separate logical domain on an Amdahl 2045C
         mainframe computer located at DISA DECC-ME;
     •   The Amdahl operating system software is OS/390 release 2.8.0;
     •   DCPS is written in COBOL II language;
     •   First point of entry security protection mechanisms are provided by
         Access Control Facility 2 (ACF2) for OS/390;
     •   DECC-ME provides four web servers that service all applications that
         support DCPS. These servers accept the users’ secure web requests by
         supplying a menu screen with options for each application to the DCPS
         LOGON SCREEN, where individuals enter their ACF2 login user IDs and
         passwords; and
     •   Several third-party software packages are used for services associated with
         DCPS (e.g., process scheduling and monitoring).

Overview of Payroll Offices

Four payroll offices located in Charleston, SC; Denver, CO; Pensacola, FL; and at
the National Security Agency (NSA), Fort Meade support the processing of all
payroll transactions. The Customer Service Representatives (CSR) at each payroll
office have access to the appropriate host system via dedicated leased lines and
various DoD networks.



                                      10
The payroll offices are structured in accordance with DFAS standard staffing policy
and conduct business using standard operating and support procedures. They
provide payroll service to customers located in various time zones and are
responsible for the full range of pay processing functions and services that mainly
include supporting and maintaining payroll transactions and resolution of issues and
errors. The Charleston payroll office supports DoE payroll recipients and the
Pensacola payroll office supports the Executive Office of the President payroll
recipients.



Overview of System Interfaces

DCPS is a combination of on-line and batch programs that support the requirements
of a bi-weekly, semimonthly, and in the case of the Executive Office of the
President, monthly payroll. Transactions to update employee data, adjust leave
balances, adjust payments for prior periods, and report time and attendance may be
input daily to spread the online workload and to obtain labor data.

DCPS takes input from three main areas: CSRs located at the payroll offices;
timekeepers; and personnel offices located throughout the DoD organization. As a
result of this input and the output to external systems, DCPS receives or creates
over 50 interface files that, among other functions, do the following:
       • Update personnel information;
       • Upload time and attendance data;
       • Download information for checks to be printed;
       • Report accounting information to the U.S. Treasury;
       • Reconcile enrollment information with health care providers; and
       • Download general accounting information to DoD agencies.
Automatic electronic file transfers directly to and from the host mainframe
computer are used for most input and output file interfaces. Output files are
automatically transferred to sites/activities using common file transfer protocols.
CSRs must provide File Transfer Table data to TSOPE for table updates. For files
not automatically transferred, it is the activity’s responsibility to access the host
computer to retrieve their output file(s) from the host. It is the responsibility of the
activity creating an input interface file for DCPS to deliver it, by whatever means is
available, to the payroll office or the processing center supporting the payroll office.
A mutually agreeable schedule between the payroll activity and the submitting
activity is established to help ensure timely receipt of data to support DCPS payroll
processing.
Beginning in 2003, and as part of the President’s Management Agenda e-Payroll
initiative, DFAS began processing payroll for Department of Energy (DOE)
employees and was selected as one of four federal payroll providers to service the
entire executive branch of the Federal government. The migration of additional
Executive Branch customers to DFAS is scheduled to be completed by September
2004. Through the consolidation process, efforts have been made to standardize
payroll processing and delivery, which will drive additional interfaces and
functionality.



                                       11
B.   Control Environment
DCPS Management Oversight

DFAS-HQ provides management control and coordination within the DoD and has
overall responsibility for the DCPS system. DFAS-HQ is responsible for reviewing
and maintaining the overall DCPS security policy. The TSOPE in Pensacola, FL, a
unit of DFAS, provides DCPS software engineering, production support, and
customer service. The TSOPE reports to the Civilian Pay Services business line at
DFAS-HQ. The DCPS system is maintained and executed on DISA mainframe
platforms at DECC-ME. DECC-ME is part of the Center for Computing Services
within the Global Information Grid Combat Support Directorate, which is a
Strategic Business Unit within DISA. DISA and DFAS are Defense Agencies that
report to the Office of the Secretary of Defense. The support services provided by
DISA to DCPS are documented in a signed service level agreement between DISA
and DFAS. The service level agreement is reviewed and updated by both agencies
on an annual basis. Both DFAS and DISA have documented policies and
procedures for their respective functions.


Personnel Policies and Procedures

DFAS Payroll Offices and TSOPE

Payroll office employees and contractors are required to review applicable
administrative orders, policies, and procedures with the Human Resource Office
and must complete appropriate forms to gain access to DFAS systems. New
employees must meet with the Information Security (IS) Manager. The IS Manager
is responsible for: (1) providing basic systems security awareness training (2)
securing civilians’ and contractors’ signature on an ADP Security Awareness
disclosure, (3) identifying to the employee who their Terminal Area Security
Officer (TASO) is and what the TASO’s responsibilities are, and (4) notifying
appropriate personnel to provide access or to immediately terminate employee
and/or contractor access to DFAS automated information system (AIS) resources
when an employee and/or contractor are processing-in or processing-out. The
payroll offices and TSOPE facilities do not require any specific level of prior
security clearance before a candidate can become an employee.

DISA DECC-ME

The Security Manager is responsible for the processing and vetting of new
employees and contractors who are given access to DISA facilities in
Mechanicsburg. All contractors and employees are required, at a minimum, to have
a secret clearance and a positive National Agency Check (NAC). For employees,
the Security Manager coordinates with the Personnel office and for contractors, the
Security Manager coordinates with the contracting officer. The contracting officer
is responsible for confirming that all contractors are assigned to a valid contract that
has been approved to operate at DISA DECC-ME.

All new employees are required to sign DISA Form 312, which serves as a
nondisclosure agreement for sensitive and classified information. When employees
are terminated, they will sign the same Form 312 to confirm that they still
understand the requirements put upon them. For new employees and contractors to


                                       12
gain access to DISA systems, they are required to complete DISA Form 2875. The
Security Manager is responsible for vetting these forms and confirming that the
person requesting access has the proper clearance for the level of access requested.
For contractors, the security manager confirms the length of the contract and
determines when system accounts should expire. All new employees and
contractors must complete security awareness training.

C. Monitoring
Management and supervisory personnel at DFAS and DISA monitor the
performance quality and internal control environment as a normal part of their
activities. DFAS and DISA have implemented a number of management, financial,
and operational reports that help monitor the performance of payroll processing as
well as the DCPS system itself. These reports are reviewed periodically and action
is taken as necessary. All procedural problems and exceptions to normal or
scheduled processing through hardware or software are logged, reported, and
resolved in a timely manner, and action is taken as necessary.

In addition, several organizations within DoD perform monitoring associated with
DCPS-related internal controls. These functions include:

DISA Office of the Inspector General and Field Security Office

DISA has its own Office of the Inspector General, which is an independent office
within DISA that conducts internal audits, inspections, and investigations. The
DISA-related components that support DCPS are part of the DISA Office of the
Inspector General audit universe and are subject to audits, inspections, and
investigations conducted by this office.

In addition, DISA also has a Field Security Operations (FSO) unit that performs
periodic reviews of DISA systems to determine whether those systems are in
compliance with DISA’s documented security standards. The DCPS system
components that are maintained by DISA are subject to these FSO reviews. The
FSO is independent of the DECC-ME management structure and does not maintain
or configure DCPS systems.

DITSCAP Certification and Accreditation

DoD Instruction 5200.40, “Department of Defense Information Technology
Security Certification and Accreditation Process” (DITSCAP), establishes a
standard Department-wide process, set of activities, general tasks, and management
structure to certify and accredit information systems that will maintain the
information assurance and security posture of the defense information infrastructure
throughout the life cycle of each system. The certification process is a
comprehensive evaluation of the technical and nontechnical security features of an
information system and other safeguards to establish the extent to which a particular
design and implementation meets specified security requirements and covers
physical, personnel, administrative, information, information systems, and
communications security. The accreditation process is a formal declaration by the
designated approving authority that an information system is approved to operate in
a particular security mode using a prescribed set of safeguards at an acceptable level
of risk.



                                      13
DCPS is subject to the requirements of DITSCAP and must meet all of the
DITSCAP certification and accreditation requirements throughout its life cycle. As
part of the DCPS DITSCAP process, separate System Security Authorization
Agreements (SSAAs) have been prepared for the DCPS application itself and for
the system enclave within DISA that supports the application. Each SSAA is a
living document that represents an agreement between the designated approving
authority, certifying authority, user representative, and program manager. Among
other items, the DCPS SSAA documents DCPS’ mission description and system
identification, environment description, system architecture description, system
class, system security requirements, organizations and resources, and DITSCAP
plan. On a periodic basis, the system security officer must verify and validate
DCPS’ compliance with the information in the SSAA. These verification and
validation procedures include, among other steps, vulnerability evaluations, security
testing and evaluation, penetration testing, and risk management reviews.

Office of the Inspector General, Department of Defense

The Office of the Inspector General (OIG), Department of Defense was established
by Congress to conduct and supervise audits and investigations related to the
programs and operations of the DoD. The OIG reports directly to the Secretary of
Defense and is independent of DFAS and DISA. DCPS, as well as the payroll
processes it supports, is part of the OIG audit universe and is subject to financial,
operational, and information technology audits, reviews, and special assessment
projects.

D. Risk Assessment
The DITSCAP process, discussed in subsection C above, includes several activities
that document and assess risks associated with DCPS. The DCPS application and
enclave SSAAs, which are a product of the DITSCAP process, also document
threats to DCPS and its supporting technical environment. The SSAAs also contain
Residual Risk Assessments that document vulnerabilities noted during DCPS tests
and analyses. The information contained in the SSAAs is updated on a periodic
basis. Personnel from DFAS TSOPE and DISA DECC-ME participate in these risk
assessment activities.
E.   Information and Communication
Information Systems
DCPS is the information system used to process civilian payroll for DoD and its
payroll customers, such as DOE. The processing of payroll involves over 50
different interfaces with DCPS. These interfaces are linked to other DoD financial
systems as well as external systems. The majority of the interfaces are automated.
All automated interfaces must conform to documented interface specifications
developed by the TSOPE, who is responsible for executing and monitoring the
automated interfaces.

Communication

The support relationship between DFAS and DISA DECC-ME is documented
through a service level agreement that is reviewed and updated annually. The
service level agreement outlines various DFAS and DISA DECC-ME points of
contact and liaisons that should be used when DCPS issues arise. DISA DECC-


                                      14
ME also assigns a customer relationship manager to work with DFAS TSOPE to
resolve any DCPS processing problems or concerns.
Within DFAS, the TSOPE and payroll offices have a weekly meeting between the
Directors and Managers of both organizations to discuss DCPS processing issues.
There is also a Configuration Control Board, comprised of TSOPE and Payroll
Office personnel, to review and approve functional and systemic changes to DCPS.
The payroll offices also have a help desk function to identify and track user issues
and problems with DCPS and communicate those issues and problems to the
TSOPE for resolution.

F.   Control Activities
The DCPS control objectives and related control activities are included in Section
III of this report, "Information Provided by the Service Auditor," to eliminate the
redundancy that would result from listing them in this section and repeating them in
Section III. Although the control objectives and related controls are included in
Section III, they are, nevertheless, an integral part of the description of controls.

G. User Organization Control Considerations
The control activities at DFAS and DISA related to DCPS were designed with the
assumption that certain controls would be placed in operation at user organizations.
This section describes some of the controls that should be in operation at user
organizations to complement the controls at DFAS and DISA.

User organizations should have policies and procedures in place to ensure that:

     •   the Information Systems Security Officer located at the payroll offices is
         notified of all terminated employees that are users of DCPS.

     •   their local Human Resource Office is notified of all terminated employees,
         so that such employees are removed from the Master Employee Record in
         a timely manner.
     •   all time entered by timekeepers is approved and authorized by appropriate
         user organization management.
     •   all Master Employee Records created represent valid employees.

     •   all changes to the Master Employee Record are approved by appropriate
         user organization personnel prior to payroll processing.

     •   segregation of duties exists between those at the user organization who
         enter time and those who enter or change Master Employee Records.

     •   if a pseudo Social Security Number (SSN) is created, the pseudo SSN has
         been authorized by appropriate user organization personnel and, if
         necessary, is accurately tied to a primary and valid SSN.

     •   user organization managers review the “Control of Hours” and other
         payroll-related reports for appropriateness and accuracy.



                                      15
•   all invalid interface feeds for time entry are reviewed and handled
    appropriately by appropriate user organization personnel and all invalid
    interface feeds for personnel records are resolved in the interface system
    by user organization personnel with appropriate approval by user
    organization management.




                                 16
Section III: Control Objectives, Control Activities, and Tests of
                    Operating Effectiveness




                               17
18
III. Control Objectives, Controls and Test of Operating
      Effectiveness
   A. Scope Limitations
   The control objectives documented in this section were specified by the Office of
   the Inspector General, Department of Defense. As described in the prior section
   (Section II), DCPS interfaces with many systems. The controls described and
   tested within this section of the report are limited to those computer systems,
   operations, and processes directly related to DCPS itself. The controls related to the
   source and destination systems associated with the DCPS interfaces are specifically
   excluded from this review. We did not perform procedures to evaluate the
   effectiveness of the input, processing, and output controls within these interface
   systems, although we did perform procedures to evaluate DCPS interface input and
   output controls. We did not perform any procedures to evaluate the integrity and
   accuracy of the data contained in DCPS.

   B. Control Deficiencies
   As a result of testing procedures described in the following matrix, operating
   effectiveness deficiencies were identified with certain control activities. In each
   instance where operating effectiveness deficiencies were identified, the audit team
   was able to identify and test additional controls that allowed the control objective to
   be achieved. These compensating controls and/or circumstances are documented
   with the description of the operating effectiveness deficiency in the following
   matrix.

   In addition, the audit team identified certain compliance exceptions with DoD
   Information Assurance standards. These exceptions have been reported to DFAS
   and DISA management in a separate management report, but are not included
   herein as these exceptions do not adversely impact the achievement of the control
   objectives included in this Service Auditor’s Report.




                                          19
      C.          Control Objectives, Control Activities, and Tests of Operating Effectiveness

Accountability (AU)

Control Objective AU-1                   Control Activity                           Test of Controls                         Test Results
Audit Record Content - Audit             Audit records contain the following        Scanned identified audit logs for the    No Relevant Exceptions Noted
records include:                         information:                               presence of:
• User ID;                               •    User ID;                              •    User ID;
• Successful and unsuccessful            •    Successful and unsuccessful           •    Successful and unsuccessful
    attempts to access security files;        attempts to access security files;         attempts to access security files
• Date and time of the event. Type       •    Date and time of the event.           •    Date and time of the event.
    of event;                                 Type of event;                             Type of event;
• Success or failure of event.           •    Success or failure of event.          •    Success or failure of event.
• Successful and unsuccessful            •    Successful and unsuccessful           •    Successful and unsuccessful
    logons;                                   logons;                                    logons;
• Denial of access resulting from        •    Denial of access resulting from       •    Denial of access resulting from
    excessive number of logon                 excessive number of logon                  excessive number of logon
    attempts;                                 attempts;                                  attempts;
• Blocking or blacklisting a user        •    Blocking or blacklisting a user       •    Blocking or blacklisting a user
    ID, terminal or access port, and          ID, terminal or access port, and           ID, terminal or access port, and
    the reason for the action;                the reason for the action;                 the reason for the action;
• Activities that might modify,          •    Activities that might modify,         •    Activities that might modify,
    bypass, or negate safeguards              bypass, or negate safeguards               bypass, or negate safeguards
    controlled by the system.                 controlled by the system.                  controlled by the system.




                                                                                   20
Control Objective AU-2                   Control Activity                         Test of Controls                         Test Results
Audit Trail, Monitoring, Analysis        DISA and DFAS policies specify the       Observed the operation of the system,    No Relevant Exceptions Noted
and Reporting - An automated,            necessary procedures. The Service        including the most recent alerts.
continuous on-line monitoring and        Level Agreement places the specific      Interviewed the personnel monitoring
audit trail creation capability is       responsibility for the performance of    the system to determine their
deployed with the capability to          the monitoring of various logs among     knowledge of the procedures.
immediately alert personnel of any       both DISA and DFAS                       Scanned manually maintained logs
unusual or inappropriate activity with                                            and records to determine that the
potential IA implications, and with a                                             appropriate audit functions are being
user configurable capability to                                                   performed.
automatically disable the system if
serious IA violations are detected.

Control Objective AU-3                   Control Activity                         Test of Controls                         Test Results
Audit Trail Protection - The             DISA and DFAS policies specify the       Scanned the DISA and DFAS security       No Relevant Exceptions Noted
contents of audit trails are protected   necessary procedures. The Service        policies to confirm that they require
against unauthorized access,             Level Agreement places the specific      adequate protection to the DCPS and
modification or deletion.                responsibility for the performance of    operating system audit trails.
                                         the monitoring of various logs among     Inspected the list of personnel with
                                         both DISA and DFAS                       access to change the audit trail
                                                                                  configuration. Observed the process
                                                                                  for changing access to the audit trail
                                                                                  information.




                                                                                 21
Master Files and Tables Accuracy (MFTA)

Control Objective MFTA – 1              Control Activity                         Test of Controls                          Test Results
Controls provide reasonable assurance   Payroll master file and withholding      Confirmed through corroborative           No Relevant Exceptions Noted
that only valid and accurate changes    data tables are periodically reviewed    inquiry with the appropriate payroll
are made to the payroll master files,   for accuracy and ongoing pertinence      office management and functional
payroll withholding tables and other                                             users, that Payroll master file and
critical system components; these                                                withholding data tables are
changes are input and processed                                                  periodically reviewed for accuracy
timely.                                                                          and ongoing pertinence.
.
                                                                                 Scanned policies and procedures to        No Relevant Exceptions Noted
                                                                                 determine whether such policies
                                                                                 require that the master files and
                                                                                 withholding tables be periodically
                                                                                 reviewed.
                                                                                 Scanned Online Line Query (OLQs)          No Relevant Exceptions Noted
                                                                                 and reports to determine that master
                                                                                 files and withholding tables are
                                                                                 periodically reviewed.
1.2                                     Departmental managers periodically       Confirmed through corroborative           No Relevant Exceptions Noted
                                        review listings of current employees     inquiry with appropriate payroll
                                        within their departments and notify      office management and functional
                                        the personnel department of changes.     users, that Departmental managers
                                                                                 periodically review listings of current
                                                                                 employees within their departments
                                                                                 and notify the personnel department
                                                                                 of changes.
                                                                                 Scanned policies and procedures to        No Relevant Exceptions Noted
                                                                                 determine whether such policies
                                                                                 require managers to periodically
                                                                                 review employee listings and notify
                                                                                 personnel departments of any
                                                                                 changes.



                                                                                22
                                               Scanned control of hours report noted     No Relevant Exceptions Noted
                                               they are sent to management for
                                               review of employee listings and
                                               notification to personnel departments
                                               of necessary changes.
1.3   Requests to change the payroll           Confirmed through corroborative           No Relevant Exceptions Noted
      master file and withholding table data   inquiry with the appropriate payroll
      are logged; the log is reviewed to       office management and functional
      ensure that all requested changes are    users that the changes to the payroll
      processed timely.                        master file and withholding table data
                                               are logged and the log is reviewed to
                                               ensure that the requested changes are
                                               acceptable.
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               determine whether it is required for
                                               changes to the payroll master file and
                                               withholding table data to be logged
                                               and the log is reviewed to ensure that
                                               the requested changes are acceptable.
                                               Scanned log of changes to payroll         No Relevant Exceptions Noted
                                               master file and withholding table to
                                               confirm change details are logged.
1.4   Changes to the payroll withholding       Confirmed through corroborative           No Relevant Exceptions Noted
      tables and master files are compared     inquiry appropriate TSO office
      to authorized source documents to        management and functional users tax
      ensure that they were input              changes to the payroll withholding
      accurately.                              tables and master files are compared
                                               to source documents to ensure that
                                               the changes were tested and
                                               approved.
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               determine whether such procedures
                                               require that tax changes to the payroll
                                               withholding tables and master files
                                               are to be compared to source



                                             23
                                               documents to ensure that they were
                                               tested and approved
                                               Observed the process of tax changes     No Relevant Exceptions Noted
                                               to the payroll withholding tables and
                                               master files being compared to
                                               authorized source documents to
                                               ensure that they were tested and
                                               approved.
1.5   Requests to change the payroll           Confirmed through corroborative         No Relevant Exceptions Noted
      master file data and withholding table   inquiry with the appropriate payroll
      are submitted on prenumbered forms;      office management and functional
      the numerical sequence of such forms     users to confirm:
      is accounted for to ensure that the      •     Requests to change the payroll
      requested changes are processed               master file data and withholding
      timely. Access to source documents            table are submitted on pre-
      is controlled; Key source documents           numbered forms;
      require signatures                       • The numerical sequence of such
                                                    forms is accounted for to ensure
                                                    that the requested changes are
                                                    processed timely;
                                               • Access to source documents is
                                                    controlled;
                                               • Key source documents require
                                                    signatures.

                                               Scanned policies and procedures to      No Relevant Exceptions Noted
                                               determine whether the procedures
                                               exist to ensure:
                                               •     Requests to change the payroll
                                                    master file data and withholding
                                                    table are submitted on pre-
                                                    numbered forms;
                                               • The numerical sequence of such
                                                    forms is accounted for to ensure
                                                    that the requested changes are



                                           24
                                                    processed timely;
                                                •   Access to source documents is
                                                    controlled;
                                                •   Key source documents require
                                                    signatures.

                                                Inspected haphazard sample of            No Relevant Exceptions Noted
                                                Remedy Tickets to confirm the
                                                requests:
                                                • Are prenumbered;
                                                • That the sequence is accounted
                                                     for so that the forms are
                                                     accounted for timely;
                                                • That access to the source
                                                     documents is controlled;
                                                • That key source documents
                                                     require signatures.
1.6   The source document is well-              Confirmed through corroborative          No Relevant Exceptions Noted
      designed to aid the preparer and          inquiry appropriate payroll office
      facilitate data entry. Transaction type   management and functional users that
      and data field codes are preprinted on    the source document is appropriately
      the source document.                      designed to aid the preparer and
                                                facilitate data entry; and transaction
                                                type and data field codes are
                                                preprinted on the source document.
                                                Scanned policies and procedures to       No Relevant Exceptions Noted
                                                determine whether such policies
                                                require that the source documentation
                                                is required to be appropriately
                                                designed to aid the preparer and
                                                facilitate data entry, and that
                                                transaction type and data field codes
                                                are preprinted on the source
                                                document
                                                Observed the scanning and faxing of      No Relevant Exceptions Noted



                                            25
                                               source documents to confirm it is
                                               appropriately designed to aid the
                                               preparer and facilitate data entry; and
                                               transaction type and data field codes
                                               are preprinted on the source
                                               document
1.7   The ability to view, modify, or          Confirmed through corroborative             No Relevant Exceptions Noted
      transfer information contained in the    inquiry with the appropriate payroll
      payroll master files is restricted to    office management and functional
      authorized personnel.                    users that the ability to view, modify,
                                               or transfer information contained in
                                               the payroll master files is restricted to
                                               authorized personnel.
                                               Scanned policies and procedures             No Relevant Exceptions Noted.
                                               determine whether the policies
                                               require the ability to view, modify, or
                                               transfer information contained in the
                                               payroll master files are restricted to
                                               authorized personnel.
                                               Inspected haphazard sample of access        No relevant exceptions noted,
                                               forms to confirm the master file is         however in performing our tests we
                                               restricted to authorized personnel          noted that management had authorized
                                                                                           a large number of personnel to use
                                                                                           supervisor accounts. These numbers
                                                                                           appear excessive given the access and
                                                                                           responsibility these accounts maintain.
                                                                                           In subsequent discussions with
                                                                                           management, we noted these
                                                                                           supervisor accounts are provided to
                                                                                           authorized employees which DFAS
                                                                                           feels need this level of access to
                                                                                           perform their duties.




                                              26
Control Objective MFTA-2                 Control Activity                         Test of Controls                         Test Results
Controls provide reasonable assurance    Batch transactions without pre-          Confirmed through corroborative          No Relevant Exceptions Noted
that payroll-related data, including     assigned serial numbers are              inquiry with the appropriate payroll
gross pay, employer contributions,       automatically assigned a unique          office management and functional
employee withholdings, taxes, leave,     sequence number, which is used by        users that batch transactions without
etc., is created or updated completely   the computer to monitor that all         pre-assigned serial numbers are
and accurately. Data validation and      transactions are processed.              automatically assigned a unique
editing are performed to identify                                                 sequence number, which is used by
erroneous data. Erroneous data are                                                the computer to monitor that the
captured, reported, investigated, and                                             transactions are processed.
corrected.
                                                                                  Scanned policies and procedures to       No Relevant Exceptions Noted
                                                                                  determine whether the policies
                                                                                  require that the batch transactions
                                                                                  without pre-assigned serial numbers
                                                                                  are required to be automatically
                                                                                  assigned a unique sequence number.
                                                                                  Observed batch process monitoring        No Relevant Exceptions Noted
                                                                                  and noted transactions without
                                                                                  preassigned serial numbers are
                                                                                  automatically assigned a unique
                                                                                  sequence number.
2.2                                      Sequence checking is used to identify    Confirmed through corroborative          No Relevant Exceptions Noted
                                         missing or duplicate batch               inquiry with the appropriate TSO
                                         transactions.                            office management and functional
                                                                                  users that sequence checking is used
                                                                                  to identify missing or duplicate batch
                                                                                  transactions
                                                                                  Scanned policies and procedures to       No Relevant Exceptions Noted
                                                                                  determine whether the policies
                                                                                  require that sequence checking is
                                                                                  required to be used to identify
                                                                                  missing or duplicate batch
                                                                                  transactions.



                                                                                 27
                                                Observed the sequence checking to         No Relevant Exceptions Noted
                                                confirm it is used to identify missing
                                                or duplicate batch transactions.
2.3   Reports of missing or duplicate           Confirmed through corroborative           No Relevant Exceptions Noted
      transactions are produced, and items      inquiry with appropriate payroll
      are investigated and resolved in a        office management and functional
      timely manner.                            users that reports of missing or
                                                duplicate transactions are produced,
                                                and items are investigated and
                                                resolved timely.
                                                Scanned policies and procedures to        No Relevant Exceptions Noted
                                                determine whether such policies
                                                require that reports of missing or
                                                duplicate transactions are required to
                                                be produced, and items are be
                                                investigated and resolved timely.
                                                Scanned the Personnel Interface           Although testing confirmed that
                                                Invalid report of missing or duplicate    reports are reviewed and worked on
                                                transactions to confirm items are         daily basis, we noted that corrective
                                                investigated and resolved timely.         actions are not sufficiently
                                                                                          documented.
2.4   The source document is well-              Confirmed through corroborative           No Relevant Exceptions Noted
      designed to aid the preparer and          inquiry with appropriate payroll
      facilitate data entry. Transaction type   office management and functional
      and data field codes are preprinted on    users that the source document is
      the source document.                      appropriately designed to aid the
                                                preparer and facilitate data entry; and
                                                transaction type and data field codes
                                                are preprinted on the source
                                                document.
                                                Scanned policies and procedures to        No Relevant Exceptions Noted
                                                determine whether such policies
                                                require source documentation to be
                                                appropriately designed to aid the
                                                preparer and facilitate data entry, and



                                             28
                                               that transaction type and data field
                                               codes are preprinted on the source
                                               document.
                                               Observed the scanning and faxing of       No Relevant Exceptions Noted
                                               source document to confirm that it is
                                               appropriately designed to aid the
                                               preparer and facilitate data entry; and
                                               transaction type and data field codes
                                               are preprinted on the source
                                               document.
2.5   Payroll master file data and             Confirmed through corroborative           No Relevant Exceptions Noted
      withholding table data are edited and    inquiry with appropriate payroll
      validated; identified errors are         office management and functional
      corrected promptly.                      users that the Payroll master file data
                                               and withholding table data are edited
                                               and validated; and identified errors
                                               are corrected promptly.
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               determine whether such policies
                                               require the Payroll master file data
                                               and withholding table data to be
                                               edited and validated; and identified
                                               errors are corrected promptly.
                                               Scanned Personnel Interface Invalid       Although testing confirmed that
                                               reports of missing or duplicate           reports are reviewed and worked on
                                               transactions to confirm items are         daily basis, we noted that corrective
                                               investigated and resolved timely.         actions are not sufficiently
                                                                                         documented.
2.6   Payroll withholding table data is        Confirmed through corroborative           No Relevant Exceptions Noted
      periodically reviewed for compliance     inquiry with appropriate payroll
      with statutory requirements.             office management and functional
                                               users that exceptions, based on
                                               parameters established by
                                               management, are reported for their
                                               review and approval.



                                              29
                                         Scanned policies and procedures to       No Relevant Exceptions Noted
                                         determine whether such policies
                                         require exceptions, based on
                                         parameters established by
                                         management, to be reported for their
                                         review and approval.
                                         Scanned tax updates from BSI to          No Relevant Exceptions Noted
                                         confirm they are recalculated and
                                         subject to the change control process.
2.7   Exceptions, based on parameters    Confirmed through corroborative          No Relevant Exceptions Noted
      established by management, are     inquiry with the appropriate payroll
      reported for their review and      office management and functional
      approval.                          users that exceptions, based on
                                         parameters established by
                                         management, are reported for their
                                         review and approval.
                                         Scanned policies and procedures to       No Relevant Exceptions Noted
                                         determine whether such policies
                                         require exceptions, based on
                                         parameters established by
                                         management, to be reported for their
                                         review and approval.
                                         Scanned haphazard sample of              No Relevant Exceptions Noted
                                         exceptions on the L1OU and
                                         Employees Exceeding Limitations
                                         reports, based on parameters
                                         established by management, to
                                         confirm they are reported for their
                                         review and approval.




                                        30
    Accurate Payroll Processing (APP)

Control Objective APP-1                    Control Activity                        Test of Controls                          Test Results
Controls provide reasonable assurance      Compliance with the payroll             Confirmed through corroborative           No Relevant Exceptions Noted
that payroll processing is accurate and    disbursement processing schedule is     inquiry with appropriate payroll
recorded in the proper period. Payroll     monitored by management.                office management and functional
(including compensation and                                                        users that compliance with the
withholding) is accurately calculated                                              payroll disbursement processing
and recorded. Controls provide                                                     schedule is monitored by
reasonable assurance that disbursed                                                management.
payroll and related expense amounts
are properly calculated. Controls
provide reasonable assurance that
prior period, current, and future period
pay actions are based on effective
dates
                                                                                   Scanned policies and procedures and       Policies and procedures are not
                                                                                   searched for a statement that             detailed with specific guidance
                                                                                   compliance with the payroll               requiring that management monitor
                                                                                   disbursement processing schedule are      disbursing schedules.
                                                                                   monitored by management.

.                                                                                  Inspected pay processing schedules        No relevant exceptions noted
                                                                                   and observed payroll disbursement
                                                                                   process and noted the monitoring of
                                                                                   payroll disbursement processing
                                                                                   schedule by management.
1.2                                        The detailed payroll reconciliation     Confirmed through corroborative           No Relevant Exceptions Noted
                                           shows pertinent data describing the     inquiry with the appropriate payroll
                                           payroll (including total                office management and functional
                                           disbursements,                          users that the detailed payroll
                                           Retirement, TSP, Bonds, and other       reconciliation shows pertinent data
                                           withholdings) and the related           describing the payroll (including total
                                           balances are reconciled, in a timely    disbursements,



                                                                                  31
manner, to corresponding general         Retirement, TSP, Bonds, and other
ledger accounts within DCPS. All         withholdings) and the related
reconciling items are investigated and   balances are reconciled, in a timely
cleared on a timely basis, prior to      manner, to corresponding general
disbursement                             ledger accounts within DCPS; and
                                         reconciling items are investigated
                                         and cleared prior to disbursement.
                                         Scanned policies and procedures to        Policies and procedures are not
                                         determine whether such policies           detailed with specific guidance
                                         require the detailed payroll records      governing the reconciliation of and
                                         show pertinent data describing the        corrective action for reconciliation
                                         payroll (including total                  items. However, our testing confirms
                                         compensation, related income taxes,       reconciling items are investigated and
                                         and other withholdings) and the           cleared on a timely basis, prior to
                                         related balances are reconciled, in a     disbursement
                                         timely manner, to corresponding
                                         general ledger accounts or entries by
                                         persons who do not have unrestricted
                                         access to cash; and reconciling items
                                         to be investigated and cleared on a
                                         timely basis.

                                         Inspected a haphazard sample of           No Relevant Exceptions Noted
                                         “592” reconciliations for each
                                         database to confirm detailed payroll
                                         reconciliation shows pertinent data
                                         describing the payroll (including total
                                         disbursements, Retirement, TSP,
                                         Bonds, and other withholdings) and
                                         the related balances are reconciled, in
                                         a timely manner, to corresponding
                                         general ledger accounts within
                                         DCPS. Reconciling items are
                                         investigated and cleared on a timely
                                         basis, prior to disbursement



                                     32
1.3   Record count and control totals         Confirmed through corroborative        No Relevant Exceptions Noted
      established over source documents       inquiry with appropriate TSO office
      sent through the Imaging Center are     management and functional users,
      used to help determine the              that record count and control totals
      completeness of data entry and          established over source documents
      processing.                             sent through the Imaging Center are
                                              used to help determine the
                                              completeness of data entry and
                                              processing.
                                              Scanned policies and procedures to     Policies and procedures are not
                                              determine whether such policies        detailed with specific guidance
                                              require record count and control       governing the control totals used at the
                                              totals established over source         Imaging Center. However, our testing
                                              documents sent through the Imaging     confirms control totals exist at the
                                              Center to be used to help determine    Imaging Center.
                                              the completeness of data entry and
                                              processing.
                                              Observed the imaging of documents      No Relevant Exceptions Noted
                                              both manually scanned and faxed to
                                              confirm a unique sequence number is
                                              used to determine the completeness
                                              of processing.

1.4   For interfacing systems, record         Confirmed through corroborative        No Relevant Exceptions Noted
      counts are accumulated and              inquiry with appropriate TSO office
      compared to footer control totals to    management and functional users,
      help determine the completeness of      that for interfacing systems, record
      interface processing.                   counts are accumulated and
                                              compared to footer control totals to
                                              help determine the completeness of
                                              interface processing.

                                              Scanned policies and procedures to     No Relevant Exceptions Noted
                                              determine whether such policies



                                             33
                                               require interfacing systems, record
                                               counts to be accumulated and
                                               compared to footer control totals to
                                               help determine the completeness of
                                               interface processing.
                                               Scanned interface files to confirm      No Relevant Exceptions Noted
                                               record counts match control totals in
                                               the footer to determine completeness
                                               of interface processing.
1.5   Payroll transactions at, before, or      Confirmed through corroborative         No Relevant Exceptions Noted
      after the end of an accounting period    inquiry with the appropriate payroll
      are scrutinized and/or reconciled to     office management and functional
      ensure complete and consistent           users that payroll transactions at,
      recording in the appropriate             before, or after the end of an
      accounting period.                       accounting period are scrutinized
                                               and/or reconciled to ensure complete
                                               and consistent recording in the
                                               appropriate accounting period.

                                               Scanned policies and procedures to      Policies and procedures are not
                                               determine whether such policies         detailed with specific guidance
                                               require payroll transactions at,        requiring “592” reconciliations be
                                               before, or after the end of an          performed in the appropriate
                                               accounting period to be scrutinized     accounting period. However, our
                                               and/or reconciled to ensure complete    testing confirms reconciliations are
                                               and consistent recording in the         performed in the appropriate
                                               appropriate accounting period.          accounting period.
                                               Inspected a haphazard sample of         No Relevant Exceptions Noted
                                               “592” payroll reconciliations at,
                                               before, or after the end of an
                                               accounting period to confirm they are
                                               scrutinized and/or reconciled to
                                               ensure complete and consistent
                                               recording in the appropriate
                                               accounting period.



                                              34
1.6   Standard programmed algorithms    Confirmed through corroborative          No Relevant Exceptions Noted
      perform significant payroll       inquiry with appropriate payroll
      calculations.                     office management and functional
                                        users that tax table updates based on
                                        programmed algorithms are tested
                                        and approved prior to
                                        implementation.
                                        Scanned policies and procedures to       No Relevant Exceptions Noted
                                        determine whether such policies
                                        require tax table updates based on
                                        programmed algorithms to be tested
                                        and approved prior to
                                        implementation.

                                        Scanned tax table updates based on       No Relevant Exceptions Noted
                                        programmed algorithms to confirm
                                        they are tested and approved prior to
                                        implementation.

1.7   Programmed validation and edit    Confirmed through corroborative          No Relevant Exceptions Noted
      checks identify erroneous data    inquiry with appropriate payroll
                                        office management and functional
                                        users that programmed validation and
                                        edit checks identify erroneous data
                                        entered directly into DCPS.

                                        Scanned policies and procedures to       No Relevant Exceptions Noted
                                        determine whether such policies
                                        require programmed validation and
                                        edit checks to identify erroneous data
                                        entered directly into DCPS.
                                        Observed programmed validation and       No Relevant Exceptions Noted
                                        edit checks to confirm they identify
                                        erroneous data entered directly into



                                       35
                                           DCPS.
1.8   DCPS performs limit and              Confirmed through corroborative         No Relevant Exceptions Noted
      reasonableness checks on employee    inquiry with appropriate payroll
      earnings.                            office management and functional
                                           users that programs perform limit and
                                           reasonableness checks on employee
                                           earnings.

                                           Scanned policies and procedures to      Policies and procedures are not
                                           determine whether such policies         detailed with specific guidance
                                           require programs to perform limit       requiring that programs perform limit
                                           and reasonableness checks on            and reasonableness checks. However,
                                           employee earnings.                      our testing confirms limit and
                                                                                   reasonableness checks exist.
                                           Scanned a limit and reasonableness      No Relevant Exceptions Noted
                                           report to confirm reasonableness
                                           checks are performed on employee
                                           earnings.
1.9   Summary payroll reports including    Confirmed through corroborative         No Relevant Exceptions Noted
      total disbursements,                 inquiry with appropriate payroll
      Retirement, TSP, Bonds, and other    office management and functional
      withholdings) are reviewed and       users that summary payroll reports
      approved by management prior to      including total disbursements,
      disbursement.                        Retirement, TSP, Bonds, and other
                                           withholdings) are reviewed and
                                           approved by management prior to
                                           disbursement.
                                           Scanned policies and procedures to      Policies and procedures are not
                                           confirm that summary payroll reports    detailed with specific guidance
                                           (including total disbursements,         requiring that summary payroll reports
                                           Retirement, TSP, Bonds, and other       (including total disbursements,
                                           withholdings) are to be reviewed and    Retirement, TSP, Bonds, and other
                                           approved by management prior to         withholdings) be reviewed by
                                           disbursement.                           management prior to disbursement.
                                                                                   However, our testing in Denver and



                                          36
                                                                                     Pensacola confirms reports are
                                                                                     approved by management prior to
                                                                                     disbursement.
                                              Inspected haphazard sample of “592”    In the Charleston payroll office, the
                                              payroll reports (including total       persons who perform the
                                              disbursements,                         reconciliation also perform the
                                              Retirement, TSP, Bonds, and other      disbursement release creating the risk
                                              withholdings) to confirm that they     that disbursements could be sent to
                                              are reviewed and approved by           DFAS Cleveland for disbursement
                                              management prior to disbursement.      without proper approval. However,
                                                                                     through corroborative inquiry of
                                                                                     DFAS Charleston and DFAS
                                                                                     Cleveland personnel, we confirmed
                                                                                     that DFAS Cleveland has final
                                                                                     responsibility for the disbursement of
                                                                                     funds including net pay and requires a
                                                                                     signed copy of the reconciliation
                                                                                     before disbursement

                                                                                     In addition, during our testing we
                                                                                     noted that original signed copies of the
                                                                                     reconciliation forms which are sent to
                                                                                     DFAS Cleveland are not consistently
                                                                                     maintained at payroll office.
1.10   Overtime hours worked and              Confirmed through corroborative        No Relevant Exceptions Noted
       payments for such overtime are         inquiry with appropriate payroll
       authorized by management for all       office management and functional
       salaried employees who are paid for    users that overtime hours worked and
       overtime.                              payments for such overtime are
                                              authorized by management for
                                              salaried employees who are paid for
                                              overtime.
                                              Scanned policies and procedures to     Policies and procedures are not
                                              confirm that overtime hours worked     detailed with specific guidance
                                              and payments for such overtime are     governing the approval of overtime



                                             37
                                                  authorized by management for             hours. However, we observed the
                                                  salaried employees who are paid for      performance of procedures that
                                                  overtime.                                indicate reports are sent to
                                                                                           departmental managers for review.
                                                  Scanned control of hours report to       No Relevant Exceptions Noted
                                                  confirm they are sent to management
                                                  for salaried employees who are paid
                                                  for overtime
1.11   Program code and criteria for tests of     Confirmed through corroborative          No Relevant Exceptions Noted
       critical calculations are protected        inquiry with appropriate payroll
       from unauthorized modifications.           office management and functional
                                                  users that program code and criteria
                                                  for tests of critical calculations are
                                                  protected from unauthorized
                                                  modifications.
                                                  Scanned policies and procedures to       No Relevant Exceptions Noted
                                                  confirm that program code and
                                                  criteria for tests of critical
                                                  calculations are protected from
                                                  unauthorized modifications.
                                                  Observed program code and criteria       No Relevant Exceptions Noted
                                                  for tests of critical calculations to
                                                  confirm that the code and criteria is
                                                  protected from unauthorized
                                                  modifications.
1.12   Overriding or bypassing data               Confirmed through corroborative          No Relevant Exceptions Noted
       validation and editing is restricted to    inquiry with appropriate payroll
       supervisors and then only in a limited     office management and functional
       number of acceptable circumstances.        users that overriding or bypassing
                                                  data validation and editing is
                                                  restricted to supervisors and then
                                                  only in a limited number of
                                                  acceptable circumstances.
                                                  Scanned policies and procedures to       No Relevant Exceptions Noted
                                                  identify guidance for overriding or



                                                 38
                                                                                 bypassing data validation and editing,
                                                                                 consistent with our discussions with
                                                                                 staff.
                                                                                 Observed DCPS processing to              No Relevant Exceptions Noted
                                                                                 confirm that overriding or bypassing
                                                                                 data validation and editing is
                                                                                 restricted to supervisors and then
                                                                                 only in a limited number of
                                                                                 acceptable circumstances.
1.13                                    Every override is automatically          Confirmed through corroborative          No Relevant Exceptions Noted
                                        logged by the application so that the    inquiry with appropriate payroll
                                        action can be analyzed for               office management and functional
                                        appropriateness and correctness.         users that every override is
                                                                                 automatically logged by the
                                                                                 application so that the action can be
                                                                                 analyzed for appropriateness and
                                                                                 correctness
                                                                                 Scanned policies and procedures to       No Relevant Exceptions Noted
                                                                                 identify guidance for overriding or
                                                                                 bypassing data validation and editing,
                                                                                 consistent with our discussions with
                                                                                 staff.
                                                                                 Observed input into DCPS and noted       No Relevant Exceptions Noted
                                                                                 no overrides were needed.

Control Objective APP-2                 Control Activity                         Test of Controls                         Test Results
Controls provide reasonable assurance   All payroll queries are followed up      Confirmed through corroborative          No Relevant Exceptions Noted
that only valid, authorized employees   by persons independent of the payroll    inquiry with appropriate payroll
are paid.                               preparation and disbursement process     office management and functional
                                                                                 users that payroll queries are
                                                                                 followed up by the Customer Service
                                                                                 Department which is independent of
                                                                                 the payroll preparation and
                                                                                 disbursement process
                                                                                 Scanned policies and procedures to       Policies and procedures are not



                                                                                39
                                               confirm that payroll queries are to be   detailed with specific guidance
                                               followed up by persons independent       governing the need for payroll queries
                                               of the payroll preparation and           to be followed up by persons
                                               disbursement process                     independent of the payroll process
                                                                                        However, our testing confirms that
                                                                                        queries are reviewed by persons
                                                                                        independent of the payroll process.
.                                              Inspected a haphazard sample of          No Relevant Exceptions Noted
                                               payroll queries to confirm they are
                                               followed up by persons independent
                                               of the payroll preparation and
                                               disbursement process.
2.2   Access to the payroll bank transfer      Confirmed through corroborative          No Relevant Exceptions Noted
      tape is restricted to authorized         inquiry with appropriate payroll
      personnel.                               office management and functional
                                               users that access to the payroll bank
                                               transfer tape is restricted to
                                               authorized personnel.
                                               Scanned policies and procedures to       No Relevant Exceptions Noted
                                               confirm that access to the payroll
                                               bank transfer tape is required to be
                                               restricted to authorized personnel.
                                               Inspected access listing to confirm      No Relevant Exceptions Noted
                                               access to the payroll bank transfer
                                               tape is restricted to authorized
                                               personnel.
2.3   Payroll master file and withholding      Confirmed through corroborative          No Relevant Exceptions Noted
      data tables are periodically reviewed    inquiry with appropriate payroll
      for accuracy and ongoing pertinence.     office management and functional
                                               users, Payroll master files are
                                               periodically reviewed for accuracy
                                               and ongoing pertinence.
                                               Scanned policies and procedures to       Policies and procedures are not
                                               confirm that master files are required   detailed with specific guidance
                                               to be periodically reviewed.             governing the need for payroll master



                                              40
                                                                                         file data to be periodically reviewed
                                                                                         for ongoing pertinence. However, our
                                                                                         testing confirms payroll master file
                                                                                         data are periodically reviewed for
                                                                                         ongoing pertinence.
                                               Scanned Online Line Query (OLQs)          No Relevant Exceptions Noted
                                               and reports to determine that master
                                               files are periodically reviewed.
2.4   Departmental managers periodically       Confirmed through corroborative           No Relevant Exceptions Noted
      review listings of current employees     inquiry with appropriate payroll
      within their departments and notify      office management and functional
      the personnel department of changes.     users, Departmental managers
                                               periodically review listings of current
                                               employees within their departments
                                               and notify the personnel department
                                               of changes.
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               confirm that managers are required to
                                               periodically review employee listings
                                               and notify personnel departments of
                                               any changes.
                                               Scanned Personnel/Payroll                 No Relevant Exceptions Noted
                                               Reconciliation and Control of Hours
                                               Reports to confirm they are sent to
                                               management for review of employee
                                               listings and notification to personnel
                                               department of changes.
2.5   A control log of output product errors   Confirmed through corroborative           No Relevant Exceptions Noted
      is maintained, including the             inquiry with appropriate payroll
      corrective actions taken.                office management and functional
                                               users, a control log of output product
                                               errors is maintained, including the
                                               corrective actions taken
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               identify the requirement for a control



                                             41
                                               log of output product errors that are
                                               maintained, including the corrective
                                               actions taken.
                                               Scanned control log of output             There is no preparer or supervisor
                                               product errors, known as the              sign-off on the control log.
                                               Personnel Interface Invalid report, to    No details of corrective actions taken.
                                               confirm it is maintained, including       However, reports are reviewed on a
                                               the corrective actions taken.             daily basis.
2.6   Payroll input data is edited and         Confirmed through corroborative           No Relevant Exceptions Noted
      validated; identified errors are         inquiry with appropriate payroll
      corrected promptly.                      office management and functional
                                               users, payroll interface input data is
                                               edited and validated; identified errors
                                               are corrected promptly.
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               identify a requirement that the
                                               payroll interface input data is edited
                                               and validated; identified errors are
                                               corrected promptly.
                                               Scanned the Personnel Interface           Although testing confirmed that
                                               Invalid report of missing or duplicate    reports are reviewed and worked on
                                               transactions to confirm items are         daily basis, we noted that corrective
                                               investigated and resolved timely.         actions are not sufficiently
                                                                                         documented and that the preparer or
                                                                                         supervisor sign-off is not consistently
                                                                                         applied.
2.7   Time reported by employees is            Confirmed through corroborative           No Relevant Exceptions Noted
      reconciled regularly between clock       inquiry with appropriate payroll
      cards/timesheets and payroll reports.    office management and functional
                                               users that time reported by
                                               employees is reconciled regularly
                                               between clock cards/timesheets and
                                               payroll reports.
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               determine whether such policies



                                              42
                                                                                require that time reported by
                                                                                employees is to be reconciled
                                                                                regularly between clock
                                                                                cards/timesheets and payroll reports.
                                                                                Scanned report of time reported by        No Relevant Exceptions Noted
                                                                                employees to confirm that it is
                                                                                reconciled regularly between clock
                                                                                cards/timesheets and payroll reports.

Control Objective APP -3                Control Activity                        Test of Controls                          Test Results
Controls provide reasonable assurance   For batch application systems,          Confirmed through corroborative           No Relevant Exceptions Noted
of the reliability of DCPS data for     batches are processed in sequence.      inquiry with appropriate TSO office
financial reporting purposes. Data      Batch processing is observed real       management and functional users
validation and editing are performed    time to ensure jobs process             that batch processing is performed in
to identify erroneous data. Erroneous   appropriately.                          sequence. Scheduled jobs are
data are captured, reported,                                                    monitored to ensure they are
investigated, and corrected.                                                    processing according to schedule.
                                                                                Scanned policies and procedures to        No Relevant Exceptions Noted
                                                                                determine for batch application
                                                                                systems, batches are processed in
                                                                                sequence. Batch processing is
                                                                                observed real time to ensure jobs
                                                                                process appropriately.
.                                                                               Observed batch process monitoring         No Relevant Exceptions Noted
                                                                                and noted that batch processing is
                                                                                monitored real time and batches are
                                                                                processed in sequence.
3.2                                     Record counts and control totals are    Confirmed through corroborative           No Relevant Exceptions Noted
                                        established over the suspense file.     inquiry with appropriate TSO office
                                                                                management and functional users,
                                                                                that record counts and control totals
                                                                                are established over the suspense file.
                                                                                Scanned policies and procedures to        No Relevant Exceptions Noted
                                                                                confirm that record counts and
                                                                                control totals are established over the



                                                                               43
                                             suspense file.
                                             Inspected record counts and control       No Relevant Exceptions Noted
                                             totals to confirm they are established
                                             over the suspense file.
3.3   A control group is responsible for     Confirmed through corroborative           No Relevant Exceptions Noted
      controlling and monitoring rejected    inquiry with appropriate payroll
      transactions                           office management and functional
                                             users that a control group is
                                             responsible for controlling and
                                             monitoring rejected transactions
                                             Scanned policies and procedures to        No Relevant Exceptions Noted
                                             determine that a control group is
                                             responsible for controlling and
                                             monitoring rejected transactions
                                             Scanned the Personnel Interface           No Relevant Exceptions Noted
                                             Invalid report to confirm the report is
                                             used for controlling and monitoring
                                             rejected transactions.
3.4   Authorization profiles effectively     Confirmed through corroborative           No Relevant Exceptions Noted
      protect the suspense file from         inquiry with appropriate payroll
      unauthorized access and                office management and functional
      modification.                          users that authorization profiles
                                             effectively protect the suspense file
                                             from unauthorized access and
                                             modification.
                                             Scanned policies and procedures to        No Relevant Exceptions Noted
                                             confirm that general controls
                                             effectively protect the suspense file
                                             from unauthorized access and
                                             modification
                                             Observed authorization profiles to        No Relevant Exceptions Noted
                                             confirm that they effectively protect
                                             the suspense file from unauthorized
                                             access and modification
3.5   Rejected data are automatically        Confirmed through corroborative           No Relevant Exceptions Noted



                                            44
written on an automated error             inquiry with appropriate payroll
suspense file and held until corrected,   office management and functional
and each erroneous transaction is         users that rejected data are
annotated with codes indicating the       automatically written on an
type of data error, date and time the     automated error suspense file and
transaction was processed and the         held until corrected, and each
error identified, and the identity of     erroneous transaction is annotated
the user who originated the               with codes indicating the type of data
transaction.                              error, date and time the transaction
                                          was processed and the error
                                          identified, and the identity of the user
                                          who originated the transaction.
                                          Scanned policies and procedures to         No Relevant Exceptions Noted
                                          confirm that rejected data are
                                          required to be automatically written
                                          on an automated error suspense file
                                          and held until corrected, and each
                                          erroneous transaction is annotated
                                          with codes indicating the type of data
                                          error, date and time the transaction
                                          was processed and the error
                                          identified, and the identity of the user
                                          who originated the transaction.
                                          Scanned the Personnel Interface            No Relevant Exceptions Noted
                                          Invalid report of rejected data to
                                          confirm that the rejected data are
                                          automatically written on an
                                          automated error suspense file and
                                          held until corrected, and each
                                          erroneous transaction is annotated
                                          with codes indicating the type of data
                                          error, date and time the transaction
                                          was processed and the error
                                          identified, and the identity of the user
                                          who originated the transaction.



                                      45
3.6   The suspense file is purged of           Confirmed through corroborative           No Relevant Exceptions Noted
      transactions as they are corrected.      inquiry with appropriate payroll
                                               office management and functional
                                               users that the suspense file is purged
                                               of transactions as they are corrected.
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               determine that the suspense file is
                                               purged of transactions as they are
                                               corrected.
                                               Scanned the Personnel Interface           Although testing confirmed that
                                               Invalid report of missing or duplicate    reports are reviewed and worked on
                                               transactions and through                  daily basis, we noted that corrective
                                               corroborative inquiry confirmed the       actions are not sufficiently
                                               suspense file is purged of                documented and that the preparer or
                                               transactions as they are corrected.       supervisor sign-off is not consistently
                                                                                         applied.
3.7   The suspense file is used to produce,    Confirmed through corroborative           No Relevant Exceptions Noted
      on a regular basis and for               inquiry with appropriate payroll
      management review, an analysis of        office management and functional
      the level and type of transaction        users that the suspense file is used to
      errors and the age of uncorrected        produce, on a regular basis and for
      transactions.                            management review, an analysis of
                                               the level and type of transaction
                                               errors and the age of uncorrected
                                               transactions.
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               confirm that the suspense file is
                                               required to be used to produce, on a
                                               regular basis and for management
                                               review, an analysis of the level and
                                               type of transaction errors and the age
                                               of uncorrected transactions.
                                               Scanned the Personnel Invalid Report      No Relevant Exceptions Noted
                                               to confirm the report is used to
                                               produce, on a regular basis and for



                                              46
                                                  management review, an analysis of
                                                  the level and type of transaction
                                                  errors and the age of uncorrected
                                                  transactions.
3.8    Error reports or error files accessible    Confirmed through corroborative           No Relevant Exceptions Noted
       by computer terminal show rejected         inquiry with appropriate payroll
       transactions with error messages that      office management and functional
       have clearly understandable                users that error reports or error files
       corrective actions for each type of        accessible by computer terminal
       error.                                     show rejected transactions with error
                                                  messages that have clearly
                                                  understandable corrective actions for
                                                  each type of error.
                                                  Scanned policies and procedures to        No Relevant Exceptions Noted
                                                  confirm that error reports or error
                                                  files accessible by computer terminal
                                                  are required to show rejected
                                                  transactions with error messages that
                                                  have clearly understandable
                                                  corrective actions for each type of
                                                  error.
                                                  Scanned error reports or error files      No Relevant Exceptions Noted
                                                  accessible by computer terminal to
                                                  confirm they show rejected
                                                  transactions with error messages that
                                                  have clearly understandable
                                                  corrective actions for each type of
                                                  error.
3.09   All corrections are reviewed and           Confirmed through corroborative           There is no supervisor signature on
       approved by supervisors before the         inquiry with appropriate payroll          error report to signify review of
       corrections are reentered.                 office management and functional          technician’s corrective actions.
                                                  users that corrections are reviewed       However, reports are reviewed on a
                                                  and approved by supervisors before        daily basis.
                                                  the corrections are reentered.
                                                  Scanned policies and procedures to        Policies and procedures are not



                                                 47
                                                                                    confirm that corrections are to be        detailed with specific guidance
                                                                                    reviewed and approved by                  requiring corrections to be reviewed
                                                                                    supervisors before the corrections are    and approved by supervisors.
                                                                                    reentered.                                However, we observed the
                                                                                                                              performance of procedures that
                                                                                                                              indicate corrections are reviewed and
                                                                                                                              approved by Supervisors.
                                                                                    Scanned error report, Personnel           Although testing confirmed that
                                                                                    Interface Invalid, to confirm the         reports are reviewed and worked on
                                                                                    report is reviewed and approved by        daily basis, we noted that corrective
                                                                                    supervisors before the corrections are    actions are not sufficiently
                                                                                    reentered.                                documented and that the preparer or
                                                                                                                              supervisor sign-off is not consistently
                                                                                                                              applied.

Control Objective APP-4                    Control Activity                         Test of Controls                          Test Results
Controls provide reasonable assurance      Payroll transactions at, before, or      Confirmed through corroborative           No Relevant Exceptions Noted
that capabilities exist for fiscal year-   after the end of an accounting period    inquiry with appropriate payroll
end, leave-year-end and calendar year-     are scrutinized and/or reconciled to     office management and functional
end processing and forfeitures in          ensure complete and consistent           users, that payroll transactions at the
accordance with established                recording in the appropriate             end of a payroll cycle are reconciled
Government-wide and agency                 accounting period                        to ensure complete and consistent
guidelines. Controls provide                                                        recording in the appropriate
reasonable assurance that current- or                                               accounting period.
prior-period adjustments to employee's
pay, i.e. employee debt, tax deduction
or deductions not taken, are reported,
reconciled and approved.
                                                                                    Scanned policies and procedures to        Policies and procedures are not
                                                                                    confirm that payroll transactions at,     detailed with specific guidance
                                                                                    before, or after the end of an            requiring “592” reconciliations be
                                                                                    accounting period are required to be      performed in the appropriate
                                                                                    scrutinized and/or reconciled to          accounting period. However, , our
                                                                                    ensure complete and consistent            testing confirms we observed the
                                                                                    recording in the appropriate              performance of procedures that



                                                                                   48
                                              accounting period.                        indicate the reconciliations are
                                                                                        performed in the appropriate
                                                                                        accounting period.
                                              Inspected haphazard sample of “592”       No Relevant Exceptions Noted
                                              payroll reconciliations at the end of a
                                              payroll cycle to confirm they are
                                              reconciled to ensure complete and
                                              consistent recording in the
                                              appropriate accounting period.
4.2   Payroll withholding table data is       Confirmed through corroborative           No Relevant Exceptions Noted
      periodically reviewed for compliance    inquiry with appropriate payroll
      with statutory requirements.            office management and functional
                                              users, payroll withholding table data
                                              is periodically reviewed for
                                              compliance with statutory
                                              requirements.
                                              Scanned policies and procedures to        No Relevant Exceptions Noted
                                              confirm that payroll withholding
                                              table data is required to be
                                              periodically reviewed for compliance
                                              with statutory requirements
                                              Inspected a haphazard sample of           No Relevant Exceptions Noted
                                              payroll withholding table data
                                              updates to confirm they are
                                              periodically updated for compliance
                                              with statutory requirements.
4.3     The data processing control group,    Confirmed through corroborative           No Relevant Exceptions Noted
      or some alternative                     inquiry with appropriate payroll
      •has a schedule by application that     office management and functional
      shows when outputs are to be            users, the data processing control
      completed, when they need to be         group, or some alternative
      distributed, who the recipients are,
      and the copies needed;                  •   Has a schedule by application
      •reviews output products for general        that shows when outputs are
      acceptability; and                          completed, when they need to be



                                             49
      •reconciles control information to            distributed, who the recipients
      determine completeness of                     are, and the copies needed;
      processing.                              • Review output products for
                                                    general acceptability;
                                               • Reconciles control information
                                                    to determine completeness of
                                                    processing.
                                               Scanned policies and procedures to        Policies and procedures are not
                                               confirm that the data processing          detailed with specific guidance that a
                                               control group, or some alternative,       data processing control group reviews
                                               • Has a schedule by application           output products and has a schedule of
                                                    that shows when outputs need to      completed outputs. However, our
                                                    be completed, when they need to      testing confirms a data processing
                                                    be distributed, who the recipients   control group reviews product outputs.
                                                    are, and the copies needed;
                                               • Reviews output products for
                                                    general acceptability;
                                               • Reconciles control information
                                                    to determine completeness of
                                                    processing.
                                               Scanned schedules used by the data        No Relevant Exceptions Noted
                                               processing group, to confirm they
                                               • Have a schedule by application
                                                    that shows when outputs need to
                                                    be completed, when they need to
                                                    be distributed, who the recipients
                                                    are, and the copies needed;
                                               • Reviews output products for
                                                    general acceptability;
                                               • Reconcile control information to
                                                    determine completeness of
                                                    processing
4.4   Users review output reports for data     Confirmed through corroborative           No Relevant Exceptions Noted
      accuracy, validity, and completeness.    inquiry with appropriate payroll
      The reports include                      office management and functional



                                              50
      •error reports•                    users, users review output reports for
      •master record change reports,     data accuracy, validity, and
      •exception reports                 completeness. The reports include
                                          • Error reports;
                                          • Master record change reports;
                                          • Exception reports.
                                         Scanned policies and procedures to       Policies and procedures were not
                                         determine whether such policies          detailed with specific guidance that
                                         require users to review output reports   output errors included error and
                                         for data accuracy, validity, and         transaction reports, and master record
                                         completeness. The reports include        change reports. However, our testing
                                         • Error reports;                         confirms that output errors include
                                         • Master record change reports;          error and transaction reports.
                                         • Exception reports.
                                         Scanned the Personnel Interface          No Relevant Exceptions Noted
                                         Invalid report users review for output
                                         to confirm the reports are reviewed
                                         data accuracy, validity, and
                                         completeness. The reports include
                                         • Error reports;
                                         • Master record change reports;
                                         • Exception reports.
4.5   Programmed validation and edit     Confirmed through corroborative          No Relevant Exceptions Noted
      checks identify erroneous data.    inquiry with appropriate payroll
                                         office management and functional
                                         users, that programmed validation
                                         and edit checks identify erroneous
                                         data entered directly into DCPS.
                                         Scanned policies and procedures to       No Relevant Exceptions Noted
                                         confirm that programmed validation
                                         and edit checks identify erroneous
                                         data are required to be entered
                                         directly into DCPS
                                         Observed programmed validation and       No Relevant Exceptions Noted
                                         edit checks to confirm that they



                                        51
                                               identify erroneous data entered
                                               directly into DCPS.
4.6   The detailed payroll reconciliation      Confirmed through corroborative           No Relevant Exceptions Noted
      shows pertinent data describing the      inquiry with appropriate payroll
      payroll (including total                 office management and functional
      disbursements,                           users, that the detailed payroll
      Retirement, Thrift Savings Plan          reconciliation shows pertinent data
      (TSP), Bonds, and other                  describing the payroll (including total
      withholdings) and the related            disbursements,
      balances are reconciled, in a timely     Retirement, (TSP), Bonds, and other
      manner, to corresponding general         withholdings) and the related
      ledger accounts within DCPS. All         balances are reconciled, in a timely
      reconciling items are investigated and   manner, to corresponding general
      cleared on a timely basis, prior to      ledger accounts within DCPS.
      disbursement                             Reconciling items are investigated
                                               and cleared on a timely basis, prior to
                                               disbursement.
                                               Scanned policies and procedures to        Policies and procedures are not
                                               confirm that the detailed payroll         detailed with specific guidance
                                               records show pertinent data               requiring “592” reconciliations be
                                               describing the payroll (including total   performed and how to handle
                                               compensation, related income taxes,       reconciling items. However our
                                               and other withholdings) and the           testing confirms that reconciling items
                                               related balances are to be reconciled,    are handled appropriately.
                                               in a timely manner, to corresponding
                                               general ledger accounts or entries by
                                               persons who do not have unrestricted
                                               access to cash; and reconciling items
                                               are investigated and cleared on a
                                               timely basis.
                                               Inspected haphazard sample of “592”       No Relevant Exceptions Noted
.                                              reconciliation for each database and
                                               noted detailed payroll records show
                                               pertinent data describing the payroll
                                               (including total compensation,



                                           52
 related income taxes, and other
 withholdings) and the related
 balances are reconciled, in a timely
 manner, to corresponding general
 ledger accounts or entries by persons
 who do not have unrestricted access
 to cash. Reconciling items are
 investigated and cleared on a timely
 basis.




53
Control Objective APP-5                    Control Activity                           Test of Controls                        Test Results
Controls provide reasonable assurance      All transactions are logged as             Confirmed through corroborative         No Relevant Exceptions Noted
that data transmissions between DCPS       entered, along with the terminal ID        inquiry with appropriate payroll
and user organizations are authorized,     and the ID of the person entering the      office management and functional
complete, accurate and secure. All         data.                                      users that transactions are logged as
application users are appropriately                                                   entered, along with the terminal ID
identified and authenticated. Access to                                               and the ID of the person entering the
the application and output is restricted                                              data.
to authorized users for authorized
purposes.
                                                                                      Scanned policies and procedures to      No Relevant Exceptions Noted
                                                                                      confirm that transactions are to be
                                                                                      logged as entered, along with the
                                                                                      terminal ID and the ID of the person
                                                                                      entering the data.
                                                                                      Observed the operation of the           No Relevant Exceptions Noted
                                                                                      system, including the most recent
                                                                                      alerts. Interviewed the personnel
                                                                                      monitoring the system to determine
                                                                                      their knowledge of the procedures.
                                                                                      Scanned manually maintained logs
                                                                                      and records to determine that the
                                                                                      appropriate audit functions are being
                                                                                      performed.
5.2                                        Significant fields are rekeyed or error    Confirmed through corroborative         No Relevant Exceptions Noted
                                           messages are available to verify the       inquiry with appropriate payroll
                                           accuracy of data entry.                    office management and functional
                                                                                      users that significant fields are
                                                                                      rekeyed or error messages are
                                                                                      available to verify the accuracy of
                                                                                      data entry.
                                                                                      Scanned policies and procedures to      No Relevant Exceptions Noted
                                                                                      confirm that they require significant
                                                                                      fields are rekeyed or error messages



                                                                                     54
                                                are available to verify the accuracy of
                                                data entry.
                                                Observed significant fields and noted     No Relevant Exceptions Noted
                                                error messages are available to verify
                                                the accuracy of data entry.
5.3   Effective use is made of automated        Confirmed through corroborative           No Relevant Exceptions Noted
      entry or error detection mechanisms       inquiry with appropriate payroll
      to reduce the potential for data entry    office management and functional
      errors.                                   users effective use is made of
                                                automated entry or error detection
                                                mechanisms to reduce the potential
                                                for data entry errors.
                                                Scanned policies and procedures to        No Relevant Exceptions Noted
                                                confirm that effective use is made of
                                                automated entry or error detection
                                                mechanisms are required to reduce
                                                the potential for data entry errors.
                                                Observed user entering data to            No Relevant Exceptions Noted
                                                confirm error reporting exists.
5.4   On-line access logs are maintained        Confirmed through corroborative           No Relevant Exceptions Noted
      by the system, and the logs are           inquiry with appropriate payroll
      reviewed regularly for unauthorized       office management and functional
      access attempts.                          users that on-line access logs are
                                                maintained by the system, and the
                                                logs are reviewed regularly for
                                                unauthorized access attempts.
                                                Scanned policies and procedures to        No Relevant Exceptions Noted
                                                confirm that on-line access logs are
                                                required to be maintained by the
                                                system, and the logs are reviewed
                                                regularly for unauthorized access
                                                attempts.
                                                Scanned haphazard sample of e-mail        No Relevant Exceptions Noted
                                                for unauthorized access attempts to
                                                confirm that they are maintained by



                                               55
                                               the SMO, and the logs are reviewed
                                               regularly for unauthorized access
                                               attempts.
5.5   Each operator is required to have a      Confirmed through corroborative          No Relevant Exceptions Noted
      completed and approved                   inquiry with appropriate payroll
      authorization form before being          office management and functional
      granted access to the system.            users, that each operator is required
                                               to have an authorization form before
                                               being granted access to the system.
                                               Scanned policies and procedures to       No Relevant Exceptions Noted
                                               confirm that each operator is required
                                               to have an authorization form before
                                               being granted access to the system.

                                               Inspected a haphazard sample of user     Out of twenty-three user authorization
                                               authorization forms to confirm that      forms selected for testing in
                                               each operator is required to have an     Charleston, noted one where the user’s
                                               authorization form before being          form could not be located and ten
                                               granted access to the system.            where access granted could not match
                                                                                        access approved.

                                                                                        Out of nineteen user authorization
                                                                                        forms selected for testing Pensacola,
                                                                                        noted one account where an
                                                                                        authorization form did not exist, and
                                                                                        two where access granted did not
                                                                                        match access provided.

                                                                                        For those whose access represented
                                                                                        supervisor or equivalent access,
                                                                                        management concurred with the level
                                                                                        of access provided.
5.6   Supervisors sign on to each terminal     Confirmed through corroborative          No Relevant Exceptions Noted
      device, or authorize terminal usage      inquiry with appropriate payroll
      from a program file server, before an    office management and functional



                                              56
      operator can sign on to begin work       users, that Supervisors sign on to
      for the day.                             each terminal device, or authorize
                                               terminal usage from a program file
                                               server, before an operator can sign on
                                               to begin work for the day.
                                               Scanned policies and procedures to       No Relevant Exceptions Noted
                                               confirm that Supervisors are required
                                               to sign on to each terminal device, or
                                               authorize terminal usage from a
                                               program file server, before an
                                               operator can sign on to begin work
                                               for the day.
                                               Observed sign on process to confirm      No Relevant Exceptions Noted
                                               that Supervisors sign on to each
                                               terminal device, or authorize terminal
                                               usage from a program file server,
                                               before an operator can sign on to
                                               begin work for the day.
5.7   Data entry terminals are connected to    Confirmed through corroborative          No Relevant Exceptions Noted
      the system only during specified         inquiry with appropriate payroll
      periods of the day, which                office management and functional
      corresponds with the business hours      users, that data entry terminals are
      of the data entry personnel.             connected to the system only during
                                               specified periods of the day, which
                                               corresponds with the business hours
                                               of the data entry personnel.
                                               Scanned policies and procedures          No Relevant Exceptions Noted
                                               confirm that data entry terminals are
                                               to be connected to the system only
                                               during specified periods of the day,
                                               which corresponds with the business
                                               hours of the data entry personnel.
                                               Observed after-hours processes to        No Relevant Exceptions Noted
                                               confirm terminals are not authorized
                                               to be connected after business hours.



                                              57
5.8    Each terminal automatically             Confirmed through corroborative          No Relevant Exceptions Noted
       disconnects from the system when        inquiry with appropriate payroll
       not used after a specified period of    office management and functional
       time.                                   users, that each terminal
                                               automatically disconnects from the
                                               system when not used after a
                                               specified period of time.
                                               Scanned policies and procedures to       No Relevant Exceptions Noted
                                               confirm that each terminal is required
                                               to automatically disconnect from the
                                               system when not used after a
                                               specified period of time.
                                               Observed system inactivity to            No Relevant Exceptions Noted
                                               confirm that each terminal
                                               automatically disconnects from the
                                               system when not used after a
                                               specified period of time.
5.9    When terminals are not in use,          Confirmed through corroborative          No Relevant Exceptions Noted
       terminal rooms are locked, or the       inquiry with appropriate payroll
       terminals are capable of being          office management and functional
       secured.                                users, that when terminals are not in
                                               use, terminal rooms are locked, or the
                                               terminals are capable of being
                                               secured.
                                               Scanned policies and procedures to       No Relevant Exceptions Noted
                                               determine that when terminals are not
                                               in use, terminal rooms are required to
                                               be locked, or the terminals are
                                               capable of being secured.
                                               Observed the facilities confirm that     No Relevant Exceptions Noted
                                               when terminals are not in use,
                                               terminal rooms are locked, or the
                                               terminals are capable of being
                                               secured.
5.10   Data entry terminals are located in     Observed that data entry terminals       No Relevant Exceptions Noted



                                              58
       physically secure rooms.                 are located in physically secure
                                                rooms
                                                Scanned policies and procedures to      No Relevant Exceptions Noted
                                                confirm that data entry terminals are
                                                required to be located in physically
                                                secure rooms.
                                                Observed the facilities to confirm      No Relevant Exceptions Noted
                                                that data entry terminals are located
                                                in physically secure rooms.
5.11   Remote terminal connections are          Confirmed through corroborative         Users have the ability to logon from
       secured and are connected via            inquiry with appropriate payroll        home via remote connection from
       government computers                     office management and functional        their non-government issued personal
                                                users, that remote terminal             computers. However, in order to gain
                                                connections are secured and are         access to DCPS all users must also
                                                connected via government computers      authenticate with a valid DCPS
                                                                                        username and password regardless of
                                                                                        whether they connect remotely or
                                                                                        from their office.
                                                Scanned policies and procedures to      No Relevant Exceptions Noted
                                                confirm that remote terminal
                                                connections are required to be
                                                secured and are connected via
                                                government computers
                                                Observed remote terminal                Users have the ability to logon from
                                                connections to confirm they are         home via remote connection from
                                                secured and are connected via           their non-government issued personal
                                                government computers                    computers. However, in order to gain
                                                                                        access to DCPS all users must also
                                                                                        authenticate with a valid DCPS
                                                                                        username and password regardless of
                                                                                        whether they connect remotely or
                                                                                        from their office.
5.12   Authorization profiles over terminals    Confirmed through corroborative         No Relevant Exceptions Noted
       limit what transactions can be entered   inquiry with appropriate payroll
       from a given terminal.                   office management and functional



                                            59
                                             users, that authorization profiles over
                                             terminals limit what transactions can
                                             be entered from a given terminal.
                                             Scanned policies and procedures to        Policies and procedures are not
                                             confirm that authorization profiles       detailed with specific guidance
                                             over terminals are required to limit      restricting the number of accounts
                                             what transactions can be entered          with Supervisor access or Master
                                             from a given terminal.                    Employee Record (MER) update and
                                                                                       Time and Attendance (T/A).access.
                                                                                       However, our inquires confirm these
                                                                                       accounts are given to authorized
                                                                                       employees which DFAS feels need
                                                                                       this level of access to perform their
                                                                                       duties.
                                             Inspected haphazard sample of user        No relevant exceptions noted,
                                             authorization forms to confirm that       however in performing our tests we
                                             authorization profiles limit what         noted that management had authorized
                                             transactions can be entered from a        a large number of personnel to use
                                             given terminal.                           personnel accounts. These numbers
                                                                                       appear excessive given the access and
                                                                                       responsibility these accounts maintain.
                                                                                       In subsequent discussions with
                                                                                       management, we noted these
                                                                                       supervisor. accounts are provided to
                                                                                       authorized employees which DFAS
                                                                                       feels need this level of access to
                                                                                       perform their duties.


5.13   Authorization profiles over users     Confirmed through corroborative           No Relevant Exceptions Noted
       limit what transactions data entry    inquiry with appropriate payroll
       personnel can enter.                  office management and functional
                                             users, that authorization profiles over
                                             users limit what transactions data
                                             entry personnel can enter.



                                            60
                                                                                    Scanned policies and procedures to         No Relevant Exceptions Noted
                                                                                    confirm that user authorization
                                                                                    profiles are required to limit what
                                                                                    transactions data entry personnel can
                                                                                    enter.
                                                                                    Inspected haphazard sample of user         No Relevant Exceptions Noted
                                                                                    authorization profiles to confirm they
                                                                                    limit what transactions can be entered
                                                                                    from a given terminal.
5.14                                      Preformatted computer terminal            Confirmed through corroborative            No Relevant Exceptions Noted
                                          screens are utilized and allow            inquiry with appropriate payroll
                                          prompting for data to be entered, and     office management and functional
                                          editing of data as it is entered.         users, that preformatted computer
                                                                                    terminal screens are utilized and
                                                                                    allows prompting for data to be
                                                                                    entered, and editing of data as it is
                                                                                    entered.
                                                                                    Scanned policies and procedures to         No Relevant Exceptions Noted
                                                                                    confirm that user authorization
                                                                                    profiles are required to limit what
                                                                                    transactions data entry personnel can
                                                                                    enter.
                                                                                    Observed haphazard sample of               No Relevant Exceptions Noted
                                                                                    screen shot of preformatted computer
                                                                                    terminal screens to confirm they are
                                                                                    utilized and allow prompting for data
                                                                                    to be entered, and editing of data as it
                                                                                    is entered.

Control Objective APP -6                  Control Activity                          Test of Controls                           Test Results
Controls are reasonable to ensure that    Computer generated record counts          Confirmed through corroborative            No Relevant Exceptions Noted
transactions from interfacing systems     and control totals are established over   inquiry with appropriate TSO office
are subjected to the payroll system       and entered with batch transaction        management and functional users,
edits, validations and error-correction   data, and reconciled to determine the     that record counts and control totals
procedures.                               completeness of data entry.               are established over and entered with



                                                                                  61
                                               batch transaction data, and reconciled
                                               to determine the completeness of data
                                               entry.
                                               Scanned policies and procedures to       No Relevant Exceptions Noted
                                               determine whether such policies
                                               require record counts and control
                                               totals to be established over and
                                               entered with batch transaction data,
                                               and reconciled to determine the
                                               completeness of data entry.
.                                              Scanned record counts and control        No Relevant Exceptions Noted
                                               totals to confirm they are established
                                               over and entered with batch
                                               transaction data, and reconciled to
                                               determine the completeness of data
                                               entry.
6.2   Trailer labels or control records        Confirmed through corroborative          No Relevant Exceptions Noted
      containing record counts and control     inquiry with appropriate TSO office
      totals are generated for all computer    management and functional users,
      files and tested by application          that trailer labels or control records
      programs to determine that all           containing record counts and control
      records have been processed.             totals are generated for computer
                                               files and tested by application
                                               programs to determine that records
                                               have been processed successfully.
                                               Scanned policies and procedures and      No Relevant Exceptions Noted
                                               to confirm that trailer labels or
                                               control records containing record
                                               counts and control totals are required
                                               to be generated for computer files
                                               and tested by application programs to
                                               determine that records have been
                                               processed successfully.
                                               Scanned trailer labels or control        No Relevant Exceptions Noted
                                               records containing record counts and



                                              62
                                              control totals to confirm they are
                                              generated for computer files and
                                              tested by application programs to
                                              determine that records have been
                                              processed successfully.
6.3   A data processing control group         Confirmed through corroborative          No Relevant Exceptions Noted
      receives and reviews control total      inquiry with appropriate payroll
      reports, and determines the             office management and functional
      completeness of processing.             users, that a data processing control
                                              group receives and reviews control
                                              total reports, and determines the
                                              completeness of processing.
                                              Scanned policies and procedures to       No Relevant Exceptions Noted
                                              confirm that a data processing control
                                              group is required to receive and
                                              review control total reports, and
                                              determine the completeness of
                                              processing.
                                              Scanned the Personnel Interface          Although testing confirmed that
                                              Invalid report to confirm a data         reports are reviewed and worked on
                                              processing control group receives        daily basis, we noted that corrective
                                              and reviews control total reports, and   actions are not sufficiently
                                              determines the completeness of           documented and that the preparer or
                                              processing.                              supervisor sign-off is not consistently
                                                                                       applied.
6.4   Reconciliations are performed to        Confirmed through corroborative          No Relevant Exceptions Noted
      determine the completeness of           inquiry with appropriate payroll
      transactions processed, master files    office management and functional
      updated, and outputs generated.         users, that reconciliations are
                                              performed to determine the
                                              completeness of transactions
                                              processed, master files updated, and
                                              outputs generated.
                                              Scanned policies and procedures to       Policies and procedures are not
                                              confirm that reconciliations are to be   detailed with specific guidance



                                             63
                                               performed to determine the                requiring “592” reconciliations be
                                               completeness of transactions              performed and how to handle
                                               processed, master files updated, and      reconciling items. However, our
                                               outputs generated.                        testing confirms that reconciling
                                                                                         items are completed appropriately
                                               Inspected haphazard sample of             No Relevant Exceptions Noted
                                               “592” reconciliations to confirm that
                                               they are performed to determine the
                                               completeness of transactions
                                               processed, master files updated, and
                                               outputs generated.
6.5   Computer-generated control totals        Confirmed through corroborative           No Relevant Exceptions Noted
      (run-to-run totals) are automatically    inquiry with appropriate TSO office
      reconciled between jobs to check for     management and functional users,
      completeness of processing               that computer-generated control
                                               totals (run-to-run totals) are
                                               automatically reconciled between
                                               jobs to check for completeness of
                                               processing.
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               confirm that computer-generated
                                               control totals (run-to-run totals) are
                                               required to be automatically
                                               reconciled between jobs to check for
                                               completeness of processing.
                                               Scanned record counts and control         No Relevant Exceptions Noted
                                               totals to confirm they are established
                                               over and entered with transaction
                                               data, and reconciled to determine the
                                               completeness of data entry.
6.6   System interfaces require that the       Confirmed through corroborative           No Relevant Exceptions Noted
      sending system's output control          inquiry with appropriate TSO office
      counts equal the receiving system's      management and functional users,
      determined input counts.                 that system interfaces require that the
                                               sending system's output control



                                              64
                                                                                     counts equal the receiving systems
                                                                                     determined input counts.
                                                                                     Scanned policies and procedures to      No Relevant Exceptions Noted
                                                                                     confirm that system interfaces
                                                                                     require that the sending system's
                                                                                     output control counts equal the
                                                                                     receiving system's determined input
                                                                                     counts.
                                                                                     Scanned record counts and control       No Relevant Exceptions Noted
                                                                                     totals to confirm interfaces require
                                                                                     that the sending system's output
                                                                                     control counts equal the receiving
                                                                                     system's determined input counts.
6.7                                       Program code for data validation and       Confirmed through corroborative         No Relevant Exceptions Noted
                                          editing, and associated tables or files    inquiry with appropriate TSO office
                                          are protected from unauthorized            management and functional users,
                                          modifications.                             that program code for data validation
                                                                                     and editing and associated tables or
                                                                                     files are protected from unauthorized
                                                                                     modifications.
                                                                                     Scanned policies and procedures to      No Relevant Exceptions Noted
                                                                                     determine whether such policies
                                                                                     require program code for data
                                                                                     validation and editing and associated
                                                                                     tables or files to be protected from
                                                                                     unauthorized modifications.
                                                                                     Scanned access logs to confirm only     No Relevant Exceptions Noted
                                                                                     users authorized have access to the
                                                                                     system software.

Control Objective APP-7                   Control Activity                           Test of Controls                        Test Results
Controls are reasonable to ensure that    The data processing control group, or      Confirmed through corroborative         No Relevant Exceptions Noted
transactions from interfacing systems     some alternative                           inquiry with appropriate payroll
are subjected to the payroll system       •has a schedule by application that        office management and functional
edits, validations and error-correction   shows when outputs are to be               users, the data processing control



                                                                                    65
procedures. Data validation and         completed, when they need to be         group, or some alternative
editing are performed to identify       distributed, who the recipients are,    • Has a schedule by application
erroneous data. Erroneous data are      and the copies needed;                      that shows when outputs are to
captured, reported, investigated, and   •reviews output products for general        be completed, when they need to
corrected.                              acceptability; and                          be distributed, who the recipients
                                        •reconciles control information to          are, and the copies needed;
                                        determine completeness of               • Reviews output products for
                                        processing.                                 general acceptability; and
                                                                                • Reconciles control information
                                                                                    to determine completeness of
                                                                                    processing.
                                                                                Scanned policies and procedures to       Policies and procedures are not
                                                                                confirm that the data processing         detailed with specific guidance
                                                                                control group, or some alternative       requiring that management monitor
                                                                                • Have a schedule by application         disbursing schedules. However, we
                                                                                    that shows when outputs are to       observed the performance of
                                                                                    be completed, when they need to      procedures that indicate management
                                                                                    be distributed, who the recipients   is monitoring disbursing schedules.
                                                                                    are, and the copies needed;
                                                                                • Review output products for
                                                                                    general acceptability; and
                                                                                • Reconcile control information to
                                                                                    determine completeness of
                                                                                    processing.
                                                                                Scanned haphazard sample of              No Relevant Exceptions Noted
                                                                                schedules used by the data processing
                                                                                group, and noted
                                                                                • Has a schedule by application
                                                                                    that shows when outputs need to
                                                                                    be completed, when they need to
                                                                                    be distributed, who the recipients
                                                                                    are, and the copies needed;
                                                                                • Reviews output products for
                                                                                    general acceptability; and
                                                                                • Reconciles control information



                                                                               66
                                                    to determine completeness of
                                                    processing.
7.2   Printed reports contain a title page     Confirmed through corroborative           No Relevant Exceptions Noted
      with report name, time and date of       inquiry with appropriate payroll
      production, the processing period        office management and functional
      covered; and have an "end-of-report"     users, printed reports contain a title
      message.                                 page with report name, time and date
                                               of production, the processing period
                                               covered; and have an "end-of-report"
                                               message.
                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                               confirm printed reports are required
                                               to contain a title page with report
                                               name, time and date of production,
                                               the processing period covered; and
                                               have an "end-of-report" message
                                               Scanned haphazard sample of printed       No Relevant Exceptions Noted
                                               reports to confirm they contain a title
                                               page with report name, time and date
                                               of production, the processing period
                                               covered;
7.3   Each output produced is logged,          Confirmed through corroborative           No Relevant Exceptions Noted
      manually if not automatically,           inquiry with appropriate payroll
      including the recipient(s) who           office management and functional
      receive the output. Each transmission    users, each output produced is
      of output to a user's terminal device    logged, manually if not
      is also logged.                          automatically, including the
                                               recipient(s) who receive the output.
                                               Each transmission of output to a
                                               user's terminal device is also logged
                                               Scanned policies and procedures to        Policies and procedures are not
                                               confirm that each output produced is      detailed with specific guidance
                                               to be logged, manually if not             requiring that each output be logged
                                               automatically, including the              including the user’s terminal and the
                                               recipient(s) who receive the output.      recipient However, we observed the



                                              67
                                               Each transmission of output to a         performance of procedures that
                                               user's terminal device is also logged.   indicate these reports are being
                                                                                        reviewed regularly.
                                               Observed MECSAR to confirm               No Relevant Exceptions Noted
                                               reports are logged, manually if not
                                               automatically, including the
                                               recipient(s) who receive the output.
                                               Each transmission of output to a
                                               user's terminal device is also logged
7.4   A control log of output product errors   Confirmed through corroborative          No Relevant Exceptions Noted
      is maintained, including the             inquiry with appropriate payroll
      corrective actions taken.                office management and functional
                                               users, a control log of output product
                                               errors is maintained, including the
                                               corrective actions taken
                                               Scanned policies and procedures to       No Relevant Exceptions Noted
                                               identify the requirement for a control
                                               log of output product errors are to be
                                               maintained, including the corrective
                                               actions taken.
                                               Scanned the Personnel Interface          Although testing confirmed that
                                               Invalid report of missing or duplicate   reports are reviewed and worked on
                                               transactions to confirm it is            daily basis, we noted that corrective
                                               maintained, including the corrective     actions are not sufficiently
                                               actions taken.                           documented.
7.5   Output from reruns is subjected to       Confirmed through corroborative          No Relevant Exceptions Noted
      the same quality review as the           inquiry with appropriate payroll
      original output.                         office management and functional
                                               users, output from reruns are
                                               subjected to the same quality review
                                               as the original output.
                                               Scanned policies and procedures to       No Relevant Exceptions Noted
                                               confirm that output from reruns are
                                               subjected to the same quality review
                                               as the original output.



                                           68
                                               Scanned Personnel Interface Invalid        No Relevant Exceptions Noted
                                               report to confirm it is subjected to the
                                               same quality review as the original
                                               output.
7.6   Users review output reports for data     Confirmed through corroborative            No Relevant Exceptions Noted
      accuracy, validity, and completeness.    inquiry with appropriate payroll
      The reports include:                     office management and functional
      •error reports                           users, users review output reports for
      •master record change reports, and,      data accuracy, validity, and
      •exception reports                       completeness. The reports include:
                                                • Error reports;
                                                • Master record change reports;
                                                • Exception reports.
                                               Scanned policies and procedures and        Policies and procedures are not
                                               noted users review output reports for      detailed with specific guidance
                                               data accuracy, validity, and               requiring that users review output
                                               completeness. The reports include:         reports for accuracy, validity, and
                                               • Error reports                            completeness. However, we observed
                                               • Master record change reports;            the performance of procedures that
                                               • Exception reports.                       indicate reports are reviewed for
                                                                                          validity and completeness.
                                               Scanned Personnel Interface Invalid        No Relevant Exceptions Noted
                                               report users review for accuracy,
                                               validity, and completeness. The
                                               reports include:
                                               • Error reports;
                                               • Master record change reports;
                                               • Exception reports.
7.7   For on-line or real-time systems,        Confirmed through corroborative            No Relevant Exceptions Noted
      record count and control totals are      inquiry with appropriate TSO office
      accumulated progressively for a          management and functional users, for
      specific time period (daily or more      on-line or real-time systems, record
      frequently) and are used to help         count and control totals are
      determine the completeness or data       accumulated progressively for a
      entry and processing.                    specific time period (daily or more



                                              69
                                                                               frequently) and are used to help
                                                                               determine the completeness or data
                                                                               entry and processing.
                                                                               Scanned policies and procedures to        No Relevant Exceptions Noted
                                                                               confirm that on-line or real-time
                                                                               systems, record count and control
                                                                               totals are required to be accumulated
                                                                               progressively for a specific time
                                                                               period (daily or more frequently) and
                                                                               are used to help determine the
                                                                               completeness or data entry and
                                                                               processing.
                                                                               Scanned record counts and control         No Relevant Exceptions Noted
                                                                               total interface files to confirm they
                                                                               are accumulated progressively for a
                                                                               specific time period (daily or more
                                                                               frequently) and are used to help
                                                                               determine the completeness or data
                                                                               entry and processing.

Control Objective APP-8                 Control Activity                       Test of Controls                           Test Results
Controls provide reasonable assurance   All documents and storage media are    Confirmed through corroborative            No Relevant Exceptions Noted
that personnel payroll records and      stored in physically and               inquiry with appropriate payroll office
other sensitive information is          environmentally secure containers.     management and functional users,
maintained and disposed of in                                                  documents and storage media are
accordance with Government-wide                                                stored in physically and
and agency specific guidelines.                                                environmentally secure containers.
                                                                               Scanned policies and procedures to         No Relevant Exceptions Noted
                                                                               confirm that documents and storage
                                                                               media are stored in physically and
                                                                               environmentally secure containers.
                                                                               Observed storage processes to confirm      No Relevant Exceptions Noted
                                                                               documents and storage media are
                                                                               stored properly in environmentally
                                                                               secure containers.



                                                                              70
8.2   The system maintains and/or               Confirmed through corroborative             No Relevant Exceptions Noted
      disposes of personnel and payroll         inquiry with appropriate payroll office
      records in accordance with                management and functional users, the
      government-wide and agency-               system maintains personnel and payroll
      specific guidelines.                      records in accordance with
                                                government-wide and agency-specific
                                                guidelines.
                                                Scanned policies and procedures to          No Relevant Exceptions Noted
                                                confirm that the system is required to
                                                maintain personnel and payroll records
                                                in accordance with government-wide
                                                and agency-specific guidelines.
                                                Observed the personnel and payroll          No Relevant Exceptions Noted
                                                record storage processes to confirm the
                                                system maintains personnel and payroll
                                                records in accordance with
                                                government-wide and agency-specific
                                                guidelines.
8.3   All visitors to the Payroll Office must   Confirmed through corroborative             No Relevant Exceptions Noted
      sign-in and out with the authorized       inquiry with appropriate payroll office
      security personnel.                       management and functional users,
                                                visitors to the Payroll Office must sign-
                                                in and out with the authorized security
                                                personnel.
                                                Scanned policies and procedures to          No Relevant Exceptions Noted
                                                confirm that visitors to the Payroll
                                                Office must sign-in and out with the
                                                authorized security personnel.
                                                Scanned visitor log to the payroll office   No Relevant Exceptions Noted
                                                to confirm that visitors must sign-in
                                                and with the authorized security
                                                personnel.
8.4   All terminals and payroll records are     Confirmed through corroborative             No Relevant Exceptions Noted
      located in physically secured             inquiry with appropriate payroll office
      locations.                                management and functional users,



                                              71
                                          terminals and payroll records are
                                          located in physically secured locations.
                                          Scanned policies and procedures to         No Relevant Exceptions Noted
                                          confirm that terminals and payroll
                                          records are located in physically
                                          secured locations.
                                          Toured and observed the terminal           No Relevant Exceptions Noted
                                          rooms to confirm they are physically
                                          secure.
8.5   Users maintain and/or dispose of    Confirmed through corroborative            No Relevant Exceptions Noted
      personnel and payroll records in    inquiry with appropriate payroll office
      accordance with government-wide     management and functional users, that
      and agency-specific guidelines.     users maintain and/or dispose of
                                          personnel and payroll records in
                                          accordance with government-wide and
                                          agency-specific guidelines.
                                          Scanned policies and procedures to         No Relevant Exceptions Noted
                                          confirm that users maintain and/or
                                          dispose of personnel and payroll
                                          records in accordance with
                                          government-wide and agency-specific
                                          guidelines.
                                          Observed destruction bins to confirm       No Relevant Exceptions Noted
                                          that payroll records are disposed of in
                                          accordance with government-wide and
                                          agency-specific guidelines.




                                         72
Security Design and Configuration Availability (SDCA)

Control Objective SDCA-1               Control Activity                            Test of Controls                     Test Results
Procedural Review - An annual IA       DOD and DFAS policy both direct an          Scanned DECC ME System               DECC ME – The Risk Assessment
review is conducted that               annual Information assurance review.        Readiness Reports (SRR) and          has been performed, however it is not
comprehensively evaluates existing     Review appropriate generated                corroborated IA reviews for SRR      in total compliance with DoD 8510.1-
policies and processes to ensure       documentation to ensure that these          process with Information Assurance   M. SRR reviews are regularly
procedural consistency and to ensure   processes are accomplished.                 Manager. Scanned Residual Risk       performed which may detect non-
that they fully support the goal of                                                Assessment for DCPS SSAA re-         items that are non-compliant with
uninterrupted operations.                                                          accreditation and corroborated the   DISA standards.
                                                                                   review process with DCPS ISSO.
                                                                                                                        TSOPE – DCPS does not perform
                                                                                                                        annual Information Assurance
                                                                                                                        reviews. However DCPS is audited
                                                                                                                        each year by various entities and the
                                                                                                                        scope of the reviews materially
                                                                                                                        covers the information required by
                                                                                                                        the objective.

Control Objective SDCA-2               Control Activity                        Test of Controls                         Test Results
Compliance Testing - A                 Procedures addressing the testing of    Scanned the security test and            No Relevant Exceptions Noted
comprehensive set of procedures is     patches, upgrades, and new AIS          evaluation guidelines as listed in the
implemented that tests all patches,    applications are documented.            DECC ME SSAA and the DCPS
upgrades, and new AIS applications                                             SSAA and scanned the Change
prior to deployment.                                                           Management Plan included in the
                                                                               SSAA to confirm test procedures are
                                                                               included in the procedures.

Control Objective SDCA-3               Control Activity                        Test of Controls                         Test Results
Ports, Protocols, and Services -       DECC ME follows the processes and       Gathered network traffic through the     Extraneous services are in operation
DoD information systems comply         controls enumerated in the STIGs        use of Securify monitoring points        on all three Logical Partitions and the
with DoD ports, protocols, and         which mirror DoD policy and             positioned on the DISA network and       enclave is not in compliance with the
services guidance. AIS applications,   guidance.                               analyzed the network traffic to          DoD Ports, Protocols and Services
outsourced IT-based processes and                                              confirm whether the DCPS ports,          guidance. However the risks posed



                                                                              73
platform IT identify the network             protocols, and services are in       by these services are mitigated by the
ports, protocols, and services they          accordance with DISA STIGS, DOD      other security controls in place at
plan to use as early in the life cycle as    Guidance and regulations regarding   DECC ME. Additionally, the
possible and notify hosting enclaves.        the appropriate usage of ports       application level controls noted
Enclaves register all active ports,          protocols and services.              elsewhere in this report provide
protocols, and services in accordance                                             mitigating controls.
with DoD and DoD Component
guidance.




                                            74
Security Design and Configuration Integrity (SDCI)

Control Objective SDCI–1              Control Activity                          Test of Controls                        Test Results
Control Board - All information       All changes to information systems at     Scanned the policies and procedures     We noted ESCCB meeting notes are
systems are under the control of a    DISA DECC-ME are brought before           for the Executive Software Change       not maintained for the weekly
chartered Configuration Control       at least one of two Change Control        Control Board (ESCCB) to confirm        meetings and the local CCB charter
Board (CCB) that meets regularly.     Boards (CCBs). DISA headquarters          the ESCCB meets on a weekly basis       could not be located Through
The Information Assurance Manager     has Executive software CCB which is       and minutes are maintained.             corroborative inquiry, we noted that
(IAM) is a member of the CCB.         responsible for reviewing all major       Inspected a haphazard sample of local   major software changes are evaluated
                                      system changes such as new versions,      CCB meeting notes to confirm the        by the ESCCB prior to
                                      new software, and the removal of          notes include of a list of the open     implementation and minor changes
                                      software. There is also a local CCB at    change requests to be discussed or      and updates are evaluated by the local
                                      DISA DECC-ME that meets on a              that were discussed at the meeting.     CCB prior to implementation.
                                      weekly basis. The local CCB is
                                      responsible for reviewing all
                                      operating system upgrades and fixes.
                                      The local CCB is also responsible for
                                      alerting the customer to the change
                                      and obtaining the customer approval
                                      before proceeding. Also, the local
                                      CCB is responsible for maintaining
                                      the change control records.

                                      The DISA Executive Software CCB
                                      consists of representative of DISA
                                      management as well as all the DISA-
                                      DECCs. The DISA DECC-ME local
                                      CCB consists of all department heads
                                      and the Information Assurance
                                      Manager (IAM)




                                                                               75
Control Objective SDCI-2               Control Activity                        Test of Controls                        Test Results
Configuration Specifications - A       DISA has developed and requires         Scanned the appropriate DISA STIGS      Although the enclave and the
DoD reference document such as a       compliance with the Security            and configuration documentation to      application is in compliance with
security technical implementation      Technical Implementation Guides         determine compliance with the           certain components of the DISA
guide or security recommendation       appropriate to the operating system,    configuration specifications.           issued STIGs, the enclave and
guide constitutes the primary source   application or hardware.                Analyzed the gathered network traffic   application are not in full compliance
for security configuration or                                                  to determine the compliance of the      with the STIGs. Through our other
implementation guidance for the                                                operating system with the               testing noted throughout this report,
deployment of newly acquired IA-                                               specifications.                         we observed there are multiple
and IA-enabled IT products that                                                                                        compensating security controls and
require use of the product's IA                                                                                        application level controls that would
capabilities. If a Departmental                                                                                        mitigate the material risk of these
reference document is not available,                                                                                   noncompliant items.
the system owner works with DISA or
NSA to draft configuration guidance
for inclusion in a DoD reference
guide.




                                                                              76
Control Objective SDCI-3                 Control Activity                          Test of Controls                         Test Results
Dedicated IA Services - Acquisition      Business processes supported by           Inspected appropriate Service Level      No Relevant Exceptions Noted
or outsourcing of dedicated IA           private sector information                Agreements to determine the roles
services such as incident monitoring,    systems and outsourced information        and responsibilities of the FSO.
analysis and response; operation of IA   technologies                              Scanned the FSO reports to determine
devices, such as firewalls; or key       shall be reviewed and managed             incident monitoring and response,
management services are supported        relative to contributions                 operation of IA devices.
by a formal risk analysis and            to mission outcomes and strategic
approved by the DoD Component            goals and objectives,
CIO.                                     in accordance with 40 U.S.C. Sections
                                         1423 and 1451. Data shall be
                                         collected to support reporting and IA
                                         management activities across the
                                         investment life cycle.

Control Objective SDCI-4                 Control Activity                          Test of Controls                         Test Results
Interconnection Documentation -          All interconnections of DoD               Inspected C4ISP documentation and        Several undocumented interfaces
For AIS applications, a list of all      information systems                       compared with the information            have been observed communicating
(potential) hosting enclaves is          are be managed to continuously            provided in the application SSAA.        with DCPS. However, the amount
developed and maintained along with      minimize community                        Analyzed the network traffic gathered    and types of traffic noted do not alone
evidence of deployment planning and      risk by ensuring that the assurance of    by the Securify monitoring point to      constitute a material level of risk to
coordination and the exchange of         one system is not undermined by           identify the systems by IP address via   the application or the enclave. We
connection rules and requirements.       vulnerabilities of interconnected         the central registry and check the       observed compensating controls such
For enclaves, a list of all hosted AIS   systems                                   results against the information          as the intrusion detection systems and
applications, interconnected                                                       provided by the application SSO.         the event exception reports that are
outsourced IT-based processes, and                                                                                          reviewed by the appropriate managers
interconnected IT platforms is                                                                                              that mitigate this risk.
developed and maintained along with
evidence of deployment planning and
coordination and the exchange of
connection rules and requirements.




                                                                                  77
Control Objective SDCI-5                Control Activity                          Test of Controls                         Test Results
Impact Assessment - Changes to the      All changes made at DISA DECC-            Inspected the policies and procedures    Policies and procedures are in place to
DoD information system are assessed     ME are captured in the Change             for the ESCCB to confirm changes         test changes prior to implementation
for IA and accreditation impact prior   Management System (Change                 are assessed for Information             in the production environment.
to implementation.                      Management 2000). Information             Assurance prior to implementation.       However, appropriate paperwork
                                        included in each change record is the                                              documenting the test procedures and
                                        requested time and date of                                                         results is not maintained. Through
                                        implementation, the action to occur,                                               corroborative inquiry, we noted
                                        and justification of the action. The                                               testing procedures were performed on
                                        change is then presented to the CCB                                                the two logical partitions solely
                                        where the change is assessed for IA                                                dedicated to testing the application
                                        and accreditation impact. The change                                               and the operating system.
                                        is only implemented after approval                                                 Additionally, we inspected
                                        from the CCB and testing is                                                        documentary evidence that both of the
                                        completed and reviewed.                                                            test LPARs are covered by the change
                                                                                                                           control board which does provide
                                                                                                                           some documentation regarding the
                                                                                                                           changes to the test environment.

Control Objective SDCI-6                Control Activity                          Test of Controls                         Test Results
IA for IT Services - Acquisition or     The service level agreement (SLA)         Scanned the service level agreement      No Relevant Exceptions Noted
outsourcing of IT services explicitly   between DFAS and DISA DECC-ME             (SLA) between DISA and DFAS to
addresses Government, service           explicitly states IA roles and            confirm that the agreement defines IA
provider, and end user IA roles and     responsibilities for both customer and    responsibilities for DISA, including:
responsibilities.                       service provider.                         • Protection of all files with
                                                                                      approved DISA system security
                                                                                      package in coordination with
                                                                                      DFAS-HQ;
                                                                                  • Security for the MZF
                                                                                      environment;
                                                                                  • Security for database software;
                                                                                  • Providing a physically and
                                                                                      environmentally secure facility in
                                                                                      accordance with DoD



                                                                                 78
                                                                                   regulations.

Control Objective SDCI-7                Control Activity                       Test of Controls                         Test Results
Non-repudiation - NIST FIPS 140-2       DECC ME is in the process of           Implemented Securify monitoring          DCPS traffic that is transmitted on
validated cryptography (e.g., DoD       encrypting all data streams to the     points at appropriate network nodes to   external networks is encrypted,
PKI class 3 or 4 token) is used to      FIPS-140-2 standard.                   view the network traffic flows to        however, DCPS traffic that is
implement encryption (e.g., AES,                                               confirm the use of encryption and the    transmitted on internal DoD networks
3DES, DES, Skipjack), key exchange                                             appropriate implementation of PKI        is not encrypted. We observed
(e.g., FIPS 171), digital signature                                            within the enclave.                      controls such as authentication
(e.g., DSA, RSA, ECDSA), and hash                                                                                       mechanisms and intrusion detection
(e.g., SHA-1, SHA-256, SHA-384,                                                                                         systems that mitigate this risk. In
SHA-512). Newer standards are to be                                                                                     addition, the ability to capture,
applied as they become available.                                                                                       identify, modify, and reinsert
                                                                                                                        unencrypted DCPS data traffic would
                                                                                                                        be technically difficult to accomplish.


Control Objective SDCI-8                Control Activity                       Test of Controls                         Test Results
Change Management Process - A           There is a defined configuration       Scanned the Configuration                36 of 45 sampled changes were
configuration management (CM)           management (CM) process in place at    Management policies included in the      initiated into production by the
process is implemented that includes    DISA DECC-ME. The process is           SSAA. Inspected a haphazard sample       requestor. Through corroborative
requirements for:                       documented in the SSAA under           of changes to confirm DISA change        inquiry, we determined that all
• Formally documented CM roles,         Appendix S – Change Management         management processes were                changes must be loaded into the
    responsibilities, and procedures    Plan. Included in the plan are:        followed.                                scheduling software in order to be
    to include the management of IA     • Formally documented CM roles,                                                 implemented into production. The
    information and documentation;          responsibilities and procedures                                             requestors noted in our exceptions do
• A configuration control board             including management of IA                                                  not have access to the scheduling
    that implements procedures to           information and documentation;                                              software. The individuals who
    ensure a security review and        • The detailed role of the Change                                               perform the scheduling review the
    approval of all proposed DoD            Control Board (CCB) including                                               change to determine whether it was
    information system changes, to          its roles for reviewing and                                                 approved by the CCB.
    include interconnections to other       approving changes;
    DoD information systems;            • The testing process that all                                                  We also noted 5 of 45 sampled
• A testing process to verify               changes must go through,                                                    changes were documented as having
    proposed configuration changes          including the migration of the                                              been implemented without testing.



                                                                              79
    prior to implementation in the          change from the development                                                      However, our subsequent
    operational environment; and            region to the testing region, and                                                corroborative inquiry of this
•   A verification process to provide       the testing region to production;                                                exception noted that testing had been
    additional assurance that the CM    •   Steps for reviewing the CM                                                       performed, however, the wrong box
    process is working effectively          process to ensure its operation                                                  in the change management
    and that changes outside the CM         effectiveness.                                                                   documentation had been completed.
    process are technically or
    procedurally not permitted.

Control Objective SDCI-9                Control Activity                            Test of Controls                         Test Results
System Library Management               The DISA System Support Office              Inspected the Executive Software         No Relevant Exceptions Noted
Controls - System libraries are         (SSO), a unit independent of DECC           Plan and observed the system libraries
managed and maintained to protect       operations, is responsible for              maintenance process to confirm the
privileged programs and to prevent or   maintaining the system libraries.           SSO is maintaining the libraries.
minimize the introduction of            Access to system libraries is restricted    Scanned the access list for personnel
unauthorized code.                      to authorized individuals.                  with access to the system libraries on
                                                                                    the MZF LPAR from Information
                                                                                    Systems to confirm that access to the
                                                                                    system libraries is restricted to the
                                                                                    Operating Systems Section personnel.




                                                                                   80
Security Design and Configuration Confidentiality (SDCC)

Control Objective SDCC-1                  Control Activity                        Test of Controls                      Test Results
Acquisition Standards - The               The SSO is responsible for reviewing    Scanned the policies and procedures   No Relevant Exceptions Noted
acquisition of all IA- and IA-enabled     and approving all COTS IT products.     regarding the acquisition of COTS
IT products is limited to products that                                           products to confirm that the DISA
have been evaluated by the NSA or in                                              SSO reviews all acquisitions that
accordance with NSA-approved                                                      reflect changes to the software
processes. The acquisition of all IA-                                             baseline.
and IA-enabled COTS IT products is
limited to products that have been
evaluated or validated through one of
the following sources – the
International Common Criteria (CC)
for Information Security Technology
Evaluation Mutual Recognition
Arrangement, the NIAP Evaluation
and Validation Program, or the FIPS
validation program. Robustness
requirements, the mission, and
customer needs will enable an
experienced information systems
security engineer to recommend a
Protection Profile, a particular
evaluated product or a security target
with the appropriate assurance
requirements for a product to be
submitted for evaluation.




                                                                                 81
Control Objective SDCC-2                Control Activity                          Test of Controls                         Test Results
Specified Robustness – At a             Appropriate IA products are               Implemented Securify monitoring          DCPS traffic that is transmitted on
minimum, medium-robustness COTS         implemented to protect sensitive          points at appropriate network nodes to   external networks is encrypted,
IA and IA-enabled products are used     information when the information          view the network traffic flows and to    however, DCPS traffic that is
to protect sensitive information when   transits public networks or the system    determine what IA and IA enabled         transmitted on internal DoD networks
the information transits public         handling the information is accessible    products are used to protect sensitive   is not encrypted. We observed
networks or the system handling the     by individuals who are not authorized     information in transit and at rest.      controls such as authentication
information is accessible by            to access the information on the                                                   mechanisms and intrusion detection
individuals who are not authorized to   system.                                                                            systems that mitigate this risk. In
access the information on the system.                                                                                      addition, the ability to capture,
The medium-robustness requirements                                                                                         identify, modify, and reinsert DCPS
for products are defined in the                                                                                            data traffic would be technically
Protection Profile Consistency                                                                                             difficult to accomplish.
Guidance for Medium Robustness
published under the IATF.

COTS IA and IA-enabled IT products
used for access control, data
separation, or privacy on sensitive
systems already protected by
approved medium-robustness
products, at a minimum, satisfy the
requirements for basic robustness. If
these COTS IA and IA-enabled IT
products are used to protect National
Security Information by
cryptographic means, NSA-approved
key management may be required.




                                                                                 82
Identification and Authentication Integrity (IAC)

Control Objective IAC-1                    Control Activity                         Test of Controls                         Test Results
Group Identification and                   The use of Public Key Infrastructure     Implemented Securify monitoring          Our testing noted managers are
Authentication - Group                     (PKI) certificates and biometrics for    points at appropriate network nodes to   sharing user IDs in special
authenticators for application or          positive authentication shall be in      confirm group authenticators for         circumstances. These IDs only have
network access may be used only in         accordance with published DoD            application or network access are only   limited access capabilities to perform
conjunction with an individual             policy and procedures. These             used in conjunction with an individual   certain limited payroll functions. Our
authenticator. Any use of group            technologies shall be incorporated in    authenticator.                           corroborative inquiry noted the
authenticators not based on the DoD        all new acquisitions and upgrades                                                 personnel sharing the IDs are
PKI has been explicitly approved by        whenever possible. Where                                                          authorized to do so and that other
the Designated Approving Authority         interoperable PKI is required for the                                             mitigating application controls, such
(DAA).                                     exchange of unclassified information                                              as exception reporting, are in place.
                                           with vendors and contractors, the
                                           Department of Defense shall only
                                           accept PKI certificates obtained from
                                           a DoD-approved external certificate
                                           authority or other mechanisms
                                           approved in accordance with DoD
                                           policy.

Control Objective IAC-2                    Control Activity                         Test of Controls                         Test Results
 Individual Identification and             DISA user IDs and passwords are          Implemented Securify monitoring          Our testing noted managers are
Authentication - DoD information           configured according to DISA             points at appropriate network nodes to   sharing user IDs in special
system access is gained through the        standards.                               confirm system access is gained          circumstances. These IDs only have
presentation of an individual identifier                                            through the presentation of an           limited access capabilities to perform
(e.g., a unique token or user login ID)                                             individual identifier and password.      certain limited payroll functions. Our
and password. For systems utilizing a                                                                                        corroborative inquiry noted the
logon ID as the individual identifier,                                                                                       personnel sharing the IDs are
passwords are, at a minimum, a case                                                                                          authorized to do so and that other
sensitive 8-character mix of upper                                                                                           application controls, such as
case letters, lower case letters,                                                                                            exception reporting, are in place.



                                                                                   83
numbers, and special characters,
including at least one of each. At least
four characters must be changed when
a new password is created.
Deployed/tactical systems with
limited data input capabilities
implement the password to the extent
possible. Registration to receive a
user ID and password includes
authorization by a supervisor, and is
done in person before a designated
registration authority. Additionally, to
the extent system capabilities permit,
system mechanisms are implemented
to enforce automatic expiration of
passwords and to prevent password
reuse. All factory set, default or
standard-user IDs and passwords are
removed or changed. Authenticators
are protected commensurate with the
classification or sensitivity of the
information accessed; they are not
shared; and they are not embedded in
access scripts or stored on function
keys. Passwords are encrypted both
for storage and for transmission.




                                           84
Enclave and Computing Environment Availability (ECEA)

Control Objective ECEA-1                 Control Activity                            Test of Controls                          Test Results
Virus Protection - All servers,          Anti-virus software is installed on all     Inspected all servers and a haphazard     No Relevant Exceptions Noted
workstations and mobile computing        PCs, laptops, and systems under             sample of workstations at each site for
devices implement virus protection       DECC-ME control, and application            compliance with virus protection
that includes a capability for           software specific to the customers          requirements.
automatic updates.                       processing requirements is provided
                                         by either commercial vendors or
                                         Government CDAs.

Enclave and Computing Environment Integrity (ECEI)

Control Objective ECEI-1                 Control Activity                            Test of Controls                          Test Results
Audit Trail, Monitoring, Analysis        A security audit trail is implemented       Inspected the logs that are maintained    Audit logs are generated. There is no
and Reporting - An automated,            for each system that documents the          (both automated and manual) to            end user configurable capability to
continuous on-line monitoring and        identity of each person/device having       confirm that the audit capability is in   disable the system in the event of an
audit trail creation capability is       access to a system, the time of that        existence and operating according to      IA violation. Our corroborative
deployed with the capability to          access, user activity, and any actions      specifications.                           inquiry did note that incident response
immediately alert personnel of any       which attempt to change security                                                      capacities do include active
unusual or inappropriate activity with   levels or privileges established for the                                              management of the network
potential IA implications, and with a    user.                                                                                 infrastructure that would enable
user configurable capability to                                                                                                security and operations personnel to
automatically disable the system if                                                                                            disable a system if an IA violation
serious IA violations are detected                                                                                             was detected.




                                                                                    85
Control Objective ECEI-2               Control Activity                        Test of Controls                         Test Results
Privileged Account Control - All       Access to the system software is        Inspected a listing of users with        No Relevant Exceptions Noted
privileged user accounts are           administered based on roles.            access to the operating system
established and administered in                                                software on the MZF LPAR to
accordance with a role-based access                                            confirm that access to the datasets is
scheme that organizes all system and                                           restricted to the Operating Systems
network privileges into roles (e.g.,                                           Section through comparison to the
key management, network, system                                                Organizational Chart.
administration, database
administration, and web
administration). The IAM tracks
privileged role assignments.
                                       Access to the Control M scheduler is    Inspected a listing of all users with    No Relevant Exceptions Noted
                                       restricted to appropriate operations    access to Control M on MZF to
                                       personnel.                              confirm that each user is a current
                                                                               employee and that access appears
                                                                               reasonable per job function by
                                                                               comparing to the DISA DECC-ME
                                                                               Organizational Chart.




                                                                              86
Enclave and Computing Environment Confidentiality (ECEC)

Control Objective ECEC–1                  Control Activity                          Test of Controls                        Test Results
Access for Need-to-Know - Access          Access to all DoD information             Scanned the DCPS SSAA to confirm        No Relevant Exceptions Noted
to all DoD information is determined      systems is based on a demonstrated        that access to DCPS is unclassified
by both its classification and user       need-to-know, and granted in              and that users must have a need-to-
need-to-know. Need-to-know is             accordance with applicable laws and       know to obtain access.
established by the Information Owner      DoD 5200.2-R for background
and enforced by discretionary or role-    investigations, special access and IT
based access controls.                    position designations and
                                          requirements.


Control Objective ECEC–2                  Control Activity                          Test of Controls                        Test Results
Logon - Successive logon attempts         CA ACF2 is maintained at both DISA        Scanned the weekly reports of access    Password configuration does not
are controlled using one or more of       ME and the various payroll offices by     denial and observed one of the          comply with DoD 8500.2
the following:                            a series of security administrators       security administrators at DISA ME      requirements. However there are
• Access is denied after multiple         with differing roles (administration,     performing three invalid attempts to    additional compensating controls such
     unsuccessful logon attempts;         user accounts etc.) The logs are          login and then one attempt to use a     as password generational controls,
• The number of access attempts in        centrally reviewed at DISA ME.            valid password.                         password complexity factors, and
     a given period is limited;           Multiple unsuccessful login attempts                                              multiple levels of access that mitigate
• A time-delay control system is          result in the account being locked. If                                            this exception.
     employed.                            the account is unused for a specified
                                          period then the account is deactivated.
If the system allows for multiple-
logon sessions for each user ID, the
system provides a capability to
control the number of logon sessions.

Control Objective ECEC–3                  Control Activity                          Test of Controls                        Test Results
Least Privilege - Access procedures       Privilege accounts are only used by       Inspected privilege account usage       No Relevant Exceptions Noted
enforce the principles of separation of   DECC ME and DCPS personnel to             logs to confirm accounts only used to
duties and "least privilege." Access to   create/modify/delete user accounts.       perform create/modify/delete user
privileged accounts is limited to                                                   accounts.



                                                                                  87
privileged users. Use of privileged
accounts is limited to privileged
functions; that is, privileged users use
non-privileged accounts for all non-
privileged functions. This control is in
addition to an appropriate security
clearance and need-to-know
authorization.

Control Objective ECEC–4                    Control Activity                            Test of Controls                           Test Results
Marking and Labeling - Information          Information on DoD systems that             Inspected the DISA DECC-ME data            No Relevant Exceptions Noted
and DoD information systems that            store, process, transit, or display data    center, including onsite tape storage
store, process, transit, or display data    in any format that is not approved for      areas, to confirm that labels indicating
in any form or format that is not           public release complies with DoD            classification level are affixed to all
approved for public release comply          policy.                                     computers and storage devices.
with all requirements for marking and
labeling contained in policy and
guidance documents, such as DOD
5200.1R. Markings and labels clearly
reflect the classification or sensitivity
level, if applicable, and any special
dissemination, handling, or
distribution instructions.

Control Objective ECEC–5                    Control Activity                            Test of Controls                           Test Results
Conformance Monitoring and                  DECC ME performs monthly                    Inspected periodic vulnerability scans     No Relevant Exceptions Noted
Testing - Conformance testing that          vulnerabilities scans. DCPS system          and documentation of system reviews
includes periodic, unannounced, in-         and hardware are reviewed by an FSO         to confirm conformance monitoring is
depth monitoring and provides for           SRR.                                        in effect.
specific penetration testing to ensure
compliance with all vulnerability
mitigation procedures such as the
DoD IAVA or other DoD IA practices
is planned, scheduled, and conducted.
Testing is intended to ensure that the



                                                                                       88
system's IA capabilities continue to
provide adequate assurance against
constantly evolving threats and
vulnerabilities.

Control Objective ECEC–6                Control Activity                          Test of Controls                          Test Results
Warning Message - All users are         All DISA networks and platforms           Observed Security Systems Specialist      No Relevant Exceptions Noted
warned that they are entering a         present a message to users upon           login into the DISA network and then
Government information system, and      logon, which warns them that they are     into the DCPS.
are provided with appropriate privacy   entering a Government information         Inspected the text from the login to
and security notices to include         system, and are provided with             confirm warning message appears
statements informing them that they     appropriate privacy and security          upon login.
are subject to monitoring, recording    notices to include statements
and auditing.                           informing them that they are subject
                                        to monitoring, recording and auditing.

Control Objective ECEC–7                Control Activity                          Test of Controls                          Test Results
Account Control - A comprehensive       User account are suspended after 30       User access administration is tested in   No Relevant Exceptions Noted
account management process is           days of no activity, (60 days for TSO     several areas in this report. Scanned
implemented to ensure that only         and Payroll offices) and removed          logs of suspended accounts and
authorized users can gain access to     after 90 days. Accounts are issued by     removed accounts to confirm
workstations, applications, and         local security administrators, User       inactive/terminated/ transferred user
networks and that individual accounts   access administration controls are        accounts are removed.
designated as inactive, suspended, or   tested in multiple sections of this
terminated are promptly deactivated.    report, including sections APP, IAC,
                                        ECEI, ECEC, and EBDC.




                                                                                 89
Enclave Boundary Defense Availability (EBDA)

Control Objective EBDA-1                 Control Activity                           Test of Controls                       Test Results
VPN Controls - All VPN traffic is        ISS Real Secure is installed at various    Inspected the technical capabilities   No Relevant Exceptions Noted
visible to network intrusion detection   points that give visibility into the       and actual data streams to confirm
systems (IDS).                           network traffic ingressing and             that the ISS monitors are capable of
                                         egressing the enclave.                     viewing VPN traffic.




                                                                                   90
Enclave Boundary Defense Confidentiality (EBDC)

Control Objective EBDC-1                  Control Activity                          Test of Controls                          Test Results
Boundary Defense - Boundary               Perimeter firewalls and intrusion         Implemented Securify monitoring           No Relevant Exceptions Noted
defense mechanisms to include             detection systems are implemented.        points at appropriate network nodes to
firewalls and network intrusion                                                     confirm the behavior of the traffic
detection systems (IDS) are deployed                                                consistent with firewall rules and
at the enclave boundary to the wide                                                 behaviors. Observed that an intrusion
area network, at layered or internal                                                detection system has been
enclave boundaries and at key points                                                implemented.
in the network, as required. All
Internet access is proxied through
Internet access points that are under
the management and control of the
enclave and are isolated from other
DoD information systems by physical
or technical means.

Control Objective EBDC-2                  Control Activity                          Test of Controls                          Test Results
Public WAN Connection -                   DoD information systems shall             Scanned the network diagrams for the      No Relevant Exceptions Noted
Connections between DoD enclaves          regulate remote access and access to      presence of a DMZ with regards to
and the Internet or other public or       the Internet by employing positive        traffic that may flow into commercial
commercial wide area networks             technical controls such as proxy          wide area networks (i.e. the internet).
require a demilitarized zone (DMZ).       services and screened subnets, also
                                          called demilitarized zones (DMZ), or      Implemented Securify monitoring
                                          through systems that are isolated from    points at appropriate network nodes to
                                          all other DoD information systems         view the network traffic flows and
                                          through physical means.                   confirm the use of a DMZ

Control Objective EBDC-3                  Control Activity                          Test of Controls                          Test Results
Remote Access for Privileged              There is a remote dial-in router          Inspected the presence of remote          No Relevant Exceptions Noted
Functions - Remote access for             provided for Systems Administrators       access for privileged functions to
privileged functions is discouraged, is   which requires Secure Shell               confirm that remote access contain
permitted only for compelling             restrictions. ESM is installed on a       security measures such as a complete



                                                                                   91
operational needs, and is strictly        some of these systems.                    audit trail and the presence of
controlled. In addition to EBRU-1,                                                  additional security controls such as
sessions employ security measures,                                                  VPN with blocking mode, strong
such as a VPN with blocking mode                                                    encryption, strong passwords or other
enabled. A complete audit trail of                                                  means of authentication are present
each remote session is recorded, and                                                and operating.
the IAM/O reviews the log for every
remote session.

Control Objective EBDC-4                  Control Activity                          Test of Controls                         Test Results
Remote Access for User Functions -        Remote access to the Internet is          Implemented Securify monitoring          Our testing noted that remote access
All remote access to DoD information      regulated by positive technical           points at appropriate network nodes to   is not authenticated via a DMZ.
systems, to include telework access, is   controls such as proxy services and       confirm appropriate strength             However, as a compensating control,
mediated through a managed access         screened subnets, also called             encryption established in ECCT and       all authentication is performed via an
control point, such as a remote access    demilitarized zones (DMZ), or             to identify and document additional      approved security application, with a
server in a DMZ. Remote access            through systems that are isolated from    controls regarding internet address,     FIPS 140-2 compliant encryption
always uses encryption to protect the     all other DoD information systems         dial-up connection telephone numbers     algorithm with a secondary
confidentiality of the session. The       through physical means.                   etc.                                     authentication required by the
session level encryption equals or                                                                                           application.
exceeds the robustness established in
ECCT. Authenticators are restricted
to those that offer strong protection
against spoofing. Information
regarding remote access mechanisms
(e.g., Internet address, dial-up
connection telephone number) is
protected.




                                                                                   92
Physical and Environmental Availability (PEA)

Control Objective PEA-1               Control Activity                        Test of Controls                         Test Results
Environmental Controls -              The DISA DECC-ME has                    Inquired with Public Works that the      No Relevant Exceptions Noted
Appropriate fire detection &          implemented fire detection and          DISA DECC-ME data center is
suppression, humidity, temperature,   suppression systems, humidity and       equipped with fire detection monitors,
and emergency cut-off controls have   water monitors, temperature monitors    a fire suppression system, temperature
been implemented and functioning      and emergency cut-off controls.         monitors, humidity monitors and an
properly                                                                      emergency cut-off switch. Observed
                                                                              the data center to observe and confirm
                                                                              the existence and operation of the
                                                                              environmental controls.




                                                                             93
Physical and Environmental Confidentiality (PEC)

Control Objective PEC-1                   Control Activity                          Test of Controls                        Test Results
Clearing and Sanitizing - All             All documents, equipment, and             Observed the DISA DECC-ME hard          No exceptions noted
documents, equipment, and machine-        machine-readable media containing         drive sanitizing procedures with the
readable media containing sensitive       sensitive data are cleared and            DISA DECC-ME Information
data are cleared and sanitized before     sanitized before being released, and      Assurance Manager.
being released outside of the             sign off is required to certify the
Department of Defense according to        destruction of such media.
DoD 5200.1-R and ASD(C3I)
Memorandum, dated June 4, 2001,
subject: "Disposition of Unclassified
DoD Computer Hard Drives."

Control Objective PEC-2                   Control Activity                          Test of Controls                        Test Results
Physical Protection of Facilities -       All DISA facilities at DISA DECC-         Observed the physical access controls   No Relevant Exceptions Noted
Every physical access point to            ME are locked at all times. Access is     in place at DISA DECC-ME to
facilities housing workstations that      restricted using proximity cards, with    determine that appropriate physical
process or display sensitive              PIN technology, which are controlled      access restrictions are in place.
information or unclassified               and issued by the Security Manager.
information that has not been cleared
for release is controlled during
working hours and guarded or locked
during non-work hours.

Control Objective PEC-3                   Control Activity                          Test of Controls                        Test Results
Physical Security Testing - A             The Naval Inventory Control Point         Inquired with Chief of Police, Naval    No Relevant Exceptions Noted
facility penetration testing process is   conducts periodic, unannounced            Inventory Control Point (NAVICP),
in place that includes periodic,          penetration testing to confirm that       and Security Director – NAVICP, that
unannounced attempts to penetrate         physical security is adequate.            at least once every 3 years, NAVICP
key computing facilities.                                                           is subjected to an unannounced
                                                                                    penetration attempt by the Joint
                                                                                    Chiefs Vulnerability Assessment



                                                                                   94
                                                                                  Team.

                                        DISA DECC-ME’s SSAA requires              Scanned the DISA DECC-ME System          No Relevant Exceptions Noted
                                        the performance of physical security      Security Authorization Agreement
                                        inspections by the Security Office.       (SSAA) to determine that section
                                                                                  6.4.2 requires that physical security
                                                                                  inspections be conducted by the
                                                                                  Security Office as a component of
                                                                                  Traditional Security.

Control Objective PEC-4                 Control Activity                          Test of Controls                         Test Results
Workplace Security Procedures -         Procedures are in place to ensure that    Scanned the DISA DECC-ME SSAA            No Relevant Exceptions Noted
Procedures are implemented to ensure    documents and electronic media are        Appendix J, System Rules of
the proper handling and storage of      stored in accordance with DoD             Behavior to determine that all
information, such as end-of-day         standards.                                government owned property leaving
security checks, unannounced security                                             the data center building is inspected.
checks, and, where appropriate, the                                               Toured the data center facility and
imposition of a two-person rule                                                   observed that access to storage areas
within the computing facility.                                                    is controlled through the use of
                                                                                  proximity cards, PINs, and closed
                                                                                  circuit TV.

Control Objective PEC-5                 Control Activity                          Test of Controls                         Test Results
Storage - Documents and equipment       All documents and storage media are       Scanned the DISA DECC-ME SSAA            No Relevant Exceptions Noted
are stored in approved containers or    stored in physically and                  to determine that the compute facility
facilities with maintenance and         environmentally secure containers.        of the data center building has been
accountability procedures that comply                                             approved as a Collateral Classified
with DoD 5200.1-R.                                                                Storage Area up to the Secret level.
                                                                                  Toured the data center facility and
                                                                                  observed that access to storage areas
                                                                                  is controlled through the use of
                                                                                  proximity cards, PINs, and closed
                                                                                  circuit TV.




                                                                                 95
Control Objective PEC-6                    Control Activity                          Test of Controls                          Test Results
Visitor Control to Computing               The DISA DECC-ME SSAA requires            Scanned the DISA DECC-ME System           No Relevant Exceptions Noted
Facilities - Current signed procedures     all uncleared personnel to be escorted    Security Authorization Agreement
exist for controlling visitor access and   at all times while inside the DISA        (SSAA) to determine that it requires
maintaining a detailed log of all          DECC-ME (Building 308).                   that appropriately cleared personnel
visitors to the computing facility.                                                  must escort all uncleared personnel in
                                                                                     the DISA DECC-ME.
                                           All visitors to the DISA DECC-ME          Inspected the visitors sign-in at the     No Relevant Exceptions Noted
                                           must sign-in and out with the guard       DISA DECC-ME determine that
                                           on duty.                                  visitors are required to exchange their
                                                                                     normal employee or visitor badges for
                                                                                     special DISA DECC-ME badges and
                                                                                     sign visitor’s log.




                                                                                    96
Personnel Availability (PA)

Control Objective PA-1                  Control Activity                          Test of Controls                         Test Results
Security Rules of Behavior or           The DISA DECC-ME SSAA includes            Scanned the DISA DECC-ME System          No Relevant Exceptions Noted
Acceptable Use Policy - A set of        an Appendix J, System Rules of            Security Authorization Agreement
rules that describe the IA operations   Behavior, which describes the IA          (SSAA), Appendix J, System Rules of
of the DoD information system and       operations of the DoD information         Behavior to determine that it includes
clearly delineate IA responsibilities   system and clearly delineates IA          a Systems Security Plan.
and expected behavior of all            responsibilities and expected behavior
personnel is in place. The rules        of all personnel.
include the consequences of
inconsistent behavior or non-
compliance. Signed
acknowledgement of the rules is a
condition of access.




                                                                                 97
Personnel Integrity (PI)

Control Objective PI-1                   Control Activity                           Test of Controls                         Test Results
Information Assurance Training A         The DECC ME SSAA includes an               Scanned training documentation           No Relevant Exceptions Noted
program is implemented to ensure         Appendix J, System Rules of                provided by the DISA DECC-ME
that upon arrival and periodically       Behavior, which describes the IA           Security Officer to determine that
thereafter, all personnel receive        operations of the DoD information          new employees go through security
training and familiarization to          system and clearly delineates IA           awareness training their first day and
perform their assigned IA                responsibilities and expected behavior     there is an annual refresher course.
responsibilities, to include             of all personnel.                          Scanned the DCPS SSAA to
familiarization with their prescribed                                               determine that the Pensacola TSO has
roles in all IA- related plans such as                                              created an online security training
incident response, configuration                                                    awareness program that is required to
management and COOP or disaster                                                     be completed before a DCPS account.
recovery.
                                         DECC ME has ongoing security               Scanned training documentation           No Relevant Exceptions Noted
                                         awareness programs that include            provided by the DECC ME Security
                                         initial training and periodic refresher    Officer to determine that new
                                         training.                                  employees go through security
                                                                                    awareness training their first day and
                                                                                    there is an annual refresher course.




                                                                                   98
Personnel Confidentiality (PC)

Control Objective PC-1                      Control Activity                           Test of Controls                         Test Results
Accesses to Information -                   The DISA DECC-ME SSAA requires             Selected a haphazard sample of           No Relevant Exceptions Noted
Individuals requiring access to             system users to be subjected to            employees with highly permissive
sensitive information are processed         various levels of Personnel Security       access to the facilities at DISA
for access authorization in accordance      Investigations (PSI’s) based on the        DECC-ME and inspected their
with DoD personnel security policies.       level of access or privileges they have    clearance levels in the Defense
                                            within the systems. The higher the         Clearance Investigation Index with
                                            level of access, the more stringent the    the DISA DECC-ME Security Officer
                                            required investigation becomes. As a       to confirm that level security
                                            minimum, all DISA DECC-ME                  clearance level is appropriate.
                                            employees (military, civilian or
                                            contractors) will have a SECRET
                                            security clearance and a favorably
                                            completed NAC.

Control Objective PC-2                      Control Activity                           Test of Controls                         Test Results
Maintenance Personnel -                     The DISA DECC-ME SSAA requires             Inquired with the DISA DECC-ME           No Relevant Exceptions Noted
Maintenance is performed only by            that most maintenance and all              Security Officer and Information
authorized personnel. The processes         cleaning personnel are required to         Assurance Manager to determine that
for determining authorization and the       have at least a Secret clearance to        maintenance personnel are vetted just
list of authorized maintenance              work in building 308. If they do not       like any other employee or contractor.
personnel are documented.                   have the appropriate clearance they
                                            will be escorted at all times.


Control Objective PC-3                      Control Activity                           Test of Controls                         Test Results
 Access to Need-to-Know                     The DISA DECC-ME SSAA requires             Selected a haphazard sample of           No Relevant Exceptions Noted
Information - Only individuals who          that Access to all DoD information         employees with highly permissive
have a valid need-to-know that is           systems shall be based on a                access to the facilities at DISA
demonstrated by assigned official           demonstrated need-to-know, and             DECC-ME and inspected their
Government duties and who satisfy           granted in                                 clearance levels in the Defense
all personnel security criteria (e.g., IT   accordance with applicable laws and        Clearance Investigation Index with



                                                                                      99
position sensitivity background          DoD 5200.2-R                             the DISA DECC-ME Security Officer
investigation requirements outlined in   for background investigations, special   to confirm that level security
DoD 5200.2-R) are granted access to      access and                               clearance level is appropriate.
information with special protection      IT position designations and
measures or restricted distribution as   requirements. An appropriate
established by the information owner.    security clearance and non-disclosure
                                         agreement are
                                         also required for access to classified
                                         information in
                                         accordance with DoD 5200.1-R.

Vulnerability and Incident Management Availability (VIMA)

Control Objective VIMA-1                 Control Activity                         Test of Controls                         Test Results
Vulnerability Management - A             Vulnerabilities are tracked in the       Scanned the most recent reports from     No Relevant Exceptions Noted
comprehensive vulnerability              Vulnerability Management System          the VMS that pertain specifically to
management process that includes the     (VMS) database. Prior to connection      DCPS and inspected the patch levels
systematic identification and            to the network, the SA must run a        to identify mitigation techniques.
mitigation of software and hardware      VS08 report detailing Information        Implemented Securify monitoring
vulnerabilities is in place. Wherever    Assurance Vulnerability Management       points at appropriate network nodes to
system capabilities permit, mitigation   (IAVM) notices for the asset's           confirm STIG compliance with
is independently validated through       operating system. All IAVM notices       vulnerability requirements. Scanned
inspection and automated                 must be mitigated and applicable         recent SRR reports to confirm SRRs
vulnerability assessment or state        patches loaded prior to connecting the   are performed.
management tools. Vulnerability          asset to the network. Once all the
assessment tools have been acquired,     checklists have been applied from the
personnel have been appropriately        STIG and the vulnerability alerts have
trained, procedures have been            been installed, a security readiness
developed, and regular internal and      review (SRR) and an ISS scan will be
external assessments are conducted.      conducted of the operating system.
For improved interoperability,           Security assessments that require a
preference is given to tools that        scan will use the Internet Security
express vulnerabilities in the           Scanner (ISS) and the FSO Full Scan
Common Vulnerabilities and               Policy. The scan will be conducted
Exposures (CVE) naming convention        using a direct connection from the



                                                                              100
and use the Open Vulnerability         system running ISS to the system
Assessment Language (OVAL) to test     being assessed or the site is
for the presence of Vulnerabilities.   authorized to connect the asset to an
                                       isolated network during the ISS scan.
                                       Each site will place their self-
                                       assessment in the Security Readiness
                                       Review Database (SRRDB). If the
                                       systems have a database, web server,
                                       or any other software that has a STIG,
                                       they must go through a FSO SRR and
                                       the results put in the self-assessment
                                       of the SRR database.




                                                                            101
102
Section IV: Supplemental Information Provided by DFAS and
                           DISA




                           103
104
IV. Supplemental Information Provided by DFAS and DISA
   Introduction

   This section has been prepared by DFAS and DISA and is included to provide user
   organizations with information DFAS and DISA believes will be of interest to such
   organizations but which is not covered within the scope or control objectives
   established for the SAS 70 review. Specifically included is a summary of procedures
   that DFAS and DISA have put into place to enable recovery from a disaster affecting
   the DFAS TSOPE and the DISA DECC at Mechanicsburg, PA.

   This information has not been subjected to the procedures applied to the
   examination of the description of controls presented in Sections II and III of this
   report, and accordingly, the Office of Inspector General expresses no opinion
   regarding the completeness and accuracy of this information.

   TSOPE Specific Business Continuity Plans
   The DCPS production support Continuity of Operations Plan (COOP) provides an
   action plan to be implemented when there is a disaster or impending threat that would
   render DCPS production support inoperable (e.g., hurricane, damage to TSOPE
   facilities due to fire, etc.). This plan is evaluated and updated, accordingly, on an
   annual basis. In the impending threat or event, production support control for the
   DCPS production support is transferred to an alternate-processing site, currently
   defined to be DAC Huntsville, AL. Contained in the detailed COOP are names of
   DCPS staff members who will serve as a pool of resources to be mobilized to execute
   the plan and a list of documentation and supplies that are necessary to support the
   mobilized team.

   Team members are comprised of DCPS development staff members across many
   divisions and branches. TSOPE designates two members of the management team to
   be responsible for COOP execution. One is mobilized with the team and is
   responsible for team activities and communication with TSOPE while deployed to the
   COOP recovery site. The other serves as the team’s liaison at TSOPE and is
   responsible to relay current status, current area weather conditions, and other
   pertinent information to the mobilized team. The team is divided into two teams with
   each covering a 12-hour shift. Team leaders are appointed for the respective shift
   teams. Each step included in planning and executing the COOP is coordinated with
   full cooperation and involvement by the DCPS project management staff. Although
   this plan works for any type of disaster where production support becomes
   inoperable, it has been executed several times in the past years during impending
   disastrous weather, such as a hurricane.

   DISA DECC-ME Business Continuity Plans
   To accommodate a major disaster at any major DISA processing center, DISA has
   established the DISA Continuity and Test Facility (DCTF) at Slidell, LA. This
   facility is equipped with computational, DASD (Direct Access Storage Device), and
   telecommunications resources sized to provide a fully functional host site with the
   capacity to support a major disaster at any DISA processing center. The COOP
   support agreement between DFAS as the customer and DISA as the provider of
   processing system and communications services provides for restoring host site
   processing in the event of a major disaster and the timely resolution of problems
   during other disruptions that adversely affect DCPS processing. The plan, as it

                                         105
relates to DCPS, details data restoration procedures for the MZF OS/390 operating
system, the DCPS IDMS database, and related mid-tier servers and communication
devices. Backup tapes containing the incremental daily and the complete weekly
backups are rotated off site to the DISA DECC Detachment at Chambersburg, PA for
storage on a predetermined schedule.
The Crisis Management Team (CMT) at DECC-ME is responsible for declaring a
disaster has occurred and initiate the BCP. The CMT will then activate the following
response teams: Communications Team (COMT), Recovery Coordination Team
(RCT), Site Recovery Team (SRT), and the Crisis Support Team (CST). Each team
has a specific set of responsibilities defined in the Business Continuity Plan. The
contact information for each individual on each team is also included in the Business
Continuity Plan. The plan is required to be tested on an annual basis. TSOPE
personnel participate in the yearly COOP test to ensure that the process works
correctly and documentation is updated appropriately.

On September 12, 2004, Hurricane Ivan caused damage to the DFAS payroll office at
the Pensacola Naval Air Station and the TSOPE facility at Saufley Field in Pensacola.
As a result, DFAS management implemented the COOPs for the payroll office and
TSOPE operations. The implementation of COOP activities allowed DFAS to
successfully run civilian payroll for all of its customers on time from an alternative
operating location. TSOPE returned to operation on September 24, 2004.




                                      106
Acronyms and Abbreviations
ACF2        Access Control Facility 2
ACL         Audit Command Language
BMMP        Business Management Modernization Program
BPH         Business Process Handbook
C2M         Continuous Compliance Model
CCB         Configuration Control Board
CDA         Central Design Agency
CM          Configuration Management
CONUS       Continental United States
COOP        Continuity of Operations
COR         Contracting Officer Representative
COTS        Commercial Off The Shelf
CRC         Cyclic Redundancy Check
CSR         Customer Service Representatives
DAA         Designated Approving Authority
DAPS        Defense Automated Printing Service
DCPS        Defense Civilian Pay System
DECC        Defense Enterprise Computing Center
DECC-ME     Defense Enterprise Computing Center - Mechanicsburg
DFAS        Defense Finance and Accounting Service
DFAS-HQ     Defense Finance and Accounting Service-Headquarters
DISA        Defense Information Systems Agency
DISN        Defense Information System Network
DITSCAP     Department of Defense Information Technology Security Certification and
            Accreditation Process
DMZ         Demilitarized Zone
DNS         Domain Name Server
DoD         Department of Defense
DoDFMR      Department of Defense Financial Management Regulations
DoDI        Department of Defense Instruction
DOE         Department of Energy
DPAS        Defense Property Accountability System
ESCCB       Executive Software Change Control Board
FFMIA       Federal Financial Management Improvement Act
FISCAM      Federal Information Systems Controls Audit Manual
FISMA       Federal information Security Management Act
FSO         Field Security Operations
GAGAS       Generally Accepted Government Auditing Standards
GAO         General Accounting Office
GOTS        Government - Off – The – Shelf - Application


                                  107
IA        Information Assurance
IAM       Information Assurance Manager
IAO       Information Assurance Officer
IATF      Information Assurance Technical Framework
IDS       Intrusion Detection System
IG DOD    Inspector General Department of Defense
IP        Internet Protocol
ISSO      Information Systems Security Officer
IW        Information Warfare
LAN       Local Area Network
LES       Leave and Earnings Statements
MAC       Mission Assurance Category
MER       Master Employee Record
NAC       National Agency Check
NAVICP    Naval Inventory Control Point
NES       Navy Enlisted System
NIPRNET   Non-Classified Internet Protocol Router Network
NIST      National Institute of Standards and Technology
NSA       National Security Agency
OIG       Office of the Inspector General
OS        Operating System
PKE       Public Key Enabling
PKI       Public Key Infrastructure
RFQ       Request for Quotation
SAS       Statement on Auditing Standards
SLA       Service Level Agreement
SNA       Systems Network Architecture
SOP       Standard Operating Procedure
SOW       Statement of Work
SRR       System Readiness Report
SSAA      System Security Authorization Agreement
SSO       System Support Office
STIGs     Security Technical Implementation Guidelines
TASO      Terminal Area Security Officer
TSO       Technology Services Organization
TSOPE     Technology Services Engineering Organization in Pensacola
VIS       Vendor Integrity Statement




                                108
Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
National Security Agency
Defense Finance and Accounting Service
Inspector General, Defense Information Systems Agency
Director, Defense Logistics Agency
Inspector General, US Joint Forces Command

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accountability Office

Congressional Committees and Subcommittees, Chairman and Ranking
Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                          109
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
  House Subcommittee on National Security, Emerging Threats, and International
    Relations, Committee on Government Reform
  House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
    and the Census, Committee on Government Reform




                                        110
Team Members
The Defense Financial Auditing Service, in conjunction with contract auditors from
Deloitte and Touché and Urbach Kahn and Werlin and the Technical Assessment Division
of the Office of the Inspector General of the Department of Defense (IG DoD), prepared
this report. Personnel of the Quantitative Methods Division, IG DoD, also contributed to
the report.
